<html>
<title> - SECURING OUR NATION'S TRANSPORTATION SYSTEM: OVERSIGHT OF THE TRANSPORTATION SECURITY ADMINISTRATION'S CURRENT EFFORTS</title>
<body><pre>[Senate Hearing 112-346]
[From the U.S. Government Publishing Office]







                                                        S. Hrg. 112-346

                  SECURING OUR NATION'S TRANSPORTATION
   SYSTEM: OVERSIGHT OF THE TRANSPORTATION SECURITY ADMINISTRATION'S 
                            CURRENT EFFORTS

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 9, 2011

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>







                  U.S. GOVERNMENT PRINTING OFFICE
73-788 PDF                WASHINGTON : 2012 
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           ROY BLUNT, Missouri
AMY KLOBUCHAR, Minnesota             JOHN BOOZMAN, Arkansas
TOM UDALL, New Mexico                PATRICK J. TOOMEY, Pennsylvania
MARK WARNER, Virginia                MARCO RUBIO, Florida
MARK BEGICH, Alaska                  KELLY AYOTTE, New Hampshire
                                     DEAN HELLER, Nevada
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
                Todd Bertoson, Republican Staff Director
           Jarrod Thompson, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 9, 2011.................................     1
Statement of Senator Rockefeller.................................     1
    Prepared statement...........................................     1
Statement of Senator Lautenberg..................................     2
Statement of Senator Isakson.....................................     3
Statement of Senator Boxer.......................................     4
Statement of Senator Blunt.......................................     5
    Prepared statement...........................................     5
Statement of Senator Cantwell....................................     6
Statement of Senator Hutchison...................................     7
    Prepared statement...........................................     8
Statement of Senator Ayotte......................................    23
Statement of Senator Klobuchar...................................    24
Statement of Senator Boozman.....................................    27
Statement of Senator McCaskill...................................    29
Statement of Senator Pryor.......................................    31
Statement of Senator Rubio.......................................    33
Statement of Senator Thune.......................................    35

                               Witnesses

Hon. John S. Pistole, Administrator, Transportation Security 
  Administration, U.S. Department of Homeland Security...........     9
    Prepared statement...........................................    11

                                Appendix

Hon. Olympia J. Snowe, U.S. Senator from Maine, prepared 
  statement......................................................    41
Response to written questions submitted to Hon. John S. Pistole 
  by:
    Hon. John D. Rockefeller IV..................................    42
    Hon. Barbara Boxer...........................................    42
    Hon. Maria Cantwell..........................................    44
    Hon. Amy Klobuchar...........................................    49
    Hon. Tom Udall...............................................    50
    Hon. Olympia J. Snowe........................................    51
    Hon. Johnny Isakson..........................................    54
    Hon. Roy Blunt...............................................    56
    Hon. Kelly Ayotte............................................    58
Letter dated November 8, 2011 to Hon. John D. Rockefeller IV and 
  Hon. Kay Bailey Hutchison from Captain Lee Moak, President, Air 
  Line Pilots Associational International........................    58
Article from the ALPA Issue Analysis entitled ``Aviation 
  Security: 10 Years after the 9/11 Attacks''....................    60

 
                         SECURING OUR NATION'S
                    TRANSPORTATION SYSTEM: OVERSIGHT
                     OF THE TRANSPORTATION SECURITY
                    ADMINISTRATION'S CURRENT EFFORTS

                              ----------                              


                      WEDNESDAY, NOVEMBER 9, 2011

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:36 p.m. in room 
SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV., Chairman of the Committee, presiding.

      OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV., 
                U.S. SENATOR FROM WEST VIRGINIA

    [The prepared statement of the Chairman follows:]

             Prepared Statement of John D. Rockefeller IV, 
                    U.S. Senator from West Virginia
    Ten years ago this month, the Senate Commerce Committee created the 
Transportation Security Administration (TSA). I have seen firsthand how 
extremely difficult it is to lead the agency. There is no margin for 
error, and no shortage of criticism.
    We are now approaching a decade without a successful attack against 
the Nation's transportation network. I find that remarkable. I also 
know it has not come without an incredible amount of hard work on the 
part of the TSA.
    Despite its achievements in keeping our country's transportation 
networks secure, the TSA has always attracted a tremendous amount of 
attention and generated its fair share of controversy. The volume of 
traffic alone makes that so. But this does not make the job of TSA 
Administrator any easier. Adding to the daily burden you face are 
proposed budget cuts and conflicting messages from Congress on which 
direction to take the agency. But, this is exactly why I believe you 
have been the ideal person for this job from the start of your tenure.
    Your deep background in law enforcement has given you valuable 
perspective in considering new concepts and understanding the value of 
your workforce. You have worked aggressively to strengthen 
relationships with our foreign partners and to make certain 
intelligence is used as effectively as possible. The ``risk-based'' 
approach to security you advocate is a realistic path forward in our 
current environment. You have been uncompromising in promoting 
activities that are necessary for the security of our transportation 
system, but flexible when common sense dictates the need for reasonable 
alternatives. Your steady leadership is vital, and Congress should do 
everything to give you the support you deserve.
    There is a lot of misinformation and differing viewpoints about the 
adequacy of transportation security, its needs, and its direction. What 
I really want is the unvarnished truth from you regarding the direction 
of the agency, how it can be more effective, and any potential 
stumbling blocks that jeopardize our transportation security regime. I 
also want us to assist you in making sure you have the resources you 
require. You have encouraged Congress to provide additional funding 
through airline passenger security fees, and I support you in this 
effort.
    I strongly believe we must have certainty that any funds raised for 
aviation security go directly to aviation security, because I believe 
most U.S. travelers want to be safe and secure above all else. There 
should be a reasonable way to move forward and make sure needed 
security initiatives are properly funded throughout the system.
    Thank you for being here today. We can handle the truth, so please 
give us the clarity we need to keep you and the TSA successful in its 
mission.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg [presiding]. Senator Rockefeller is on 
the floor managing a bill there, and asked if I would take over 
for a bit, and I, for the, more than, was really willing to do 
that.
    I thank everyone for being here today. This month marks the 
10th Anniversary of the Transportation Security Administration. 
It was established on November 19, 2001, just after 9/11.
    From the beginning, TSA has been charged with protecting 
our entire transportation system and despite this, TSA has 
primarily focused on aviation security, and appropriately so. 
But, in fact, 98 percent of the TSA budget is dedicated to 
aviation security. And that leaves less than 2 percent for 
trains and public transportation which terrorists have fixated 
on for years, as the bombings in London, Mumbai and Madrid 
demonstrate.
    According to reports, when bin Laden was killed this 
spring, documents recovered at his compound showed that he had 
trains in his sight and in his mind that he wanted to attack in 
our country. Our rail network is as vast as it is open and rail 
offers easy access and a chance to strike high casualties. 
Americans take 10 billion trips aboard trains, subways and 
other forms of public transportation each year, compared to 700 
million flights each year.
    Make no mistake--the threat to Americans' rail network is 
real, and we've got to do more than we have to keep it secure. 
And it doesn't mean at all that we should overlook aviation 
security. It only means that we've got to take a more balanced 
approach to making transportation in our country safer.
    Aviation security remains a serious concern, particularly 
in my home state of New Jersey, where we have witnessed 
security lapses at Newark Liberty Airport, one of the busiest 
in the country. In one incident, a carry-on bag containing a 
knife got past TSA agents at the airport. In another, 
passengers were able to enter secure areas without being 
screened. Incidents like these raise concerns about our ability 
to protect the public as they move through our aviation system.
    But I also remain concerned about the ability to scan the 
baggage effectively as airline baggage fees cause passengers to 
carry on more and more, bigger bags.
    And the bottom line is this--that while we have serious 
fiscal challenges in our country, we can't put a price on human 
lives. And nothing is more important than keeping our 
communities, families and the economy safe.
    And I'm pleased that we have Administrator Pistole here for 
his efforts. I've worked with him, and know that he's a capable 
leader who works very hard at the job and does it very 
effectively. So, I look forward to hearing from him on the 
security of our entire transportation system.
    And, not to be critical at all, but to say, look, we have 
to be alert to all of the risks that our people take, and we 
want to reduce them wherever possible. So, I thank you, Mr. 
Pistole, for being here.
    And I don't see Senator Hutchison here, but in terms of our 
arrival, I'll call on Senator Isakson of Georgia. John?

               STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Thank you very much, Mr. Chairman. I 
appreciate it.
    And I want to thank Administrator Pistole for being here 
today and having this hearing.
    It's very timely for me. I represent the State of Georgia, 
in which Hartsfield-Jackson International Airport, the busiest 
airport in the United States, which boards about 90 million 
passengers a year and has the most takeoffs and landings of any 
commercial airport in the United States. And so, airport 
security is very important to me. And, like every other member 
of the Senate Commerce Committee, I go through TSA security 100 
or 120 times a year. So, TSA security is very important to me.
    And I appreciate very much the hard work the Administrator 
has done, and particularly, in recent weeks his timely response 
to an incident that took place in Atlanta. And I want to thank 
the Administrator for that.
    What happened, Mr. Chairman, is a whistleblower went to 
WSB-TV in Atlanta with undercover video of the loading of 
carts, food carts, onto airplanes at Hartsfield-Jackson 
International Airport, as well as the passage of alleged 
employees through the turnstiles, using one badge when four 
people would go through.
    These raised serious questions as to whether or not TSA 
rules were being circumvented or, in fact, may be that things 
could be slipped on through the gourmet carts onto an airplane 
that should not have been there.
    The Administrator initiated an immediate investigation. I 
received a letter today with a partial response in terms of 
what they have cleared, but a commitment that they're going to 
complete the investigation of the videos to make sure that 
they, before they comment on whether or not there were actually 
breaches. And, while I understand, because of the nature of 
security, and because television is public in the United 
States, we can't always talk about everything that we require, 
for the bad guys might be watching. But, to the extent 
possible, I hope the Administrator today will discuss some of 
these issues and some of the redundancy of the agency's 
requirements and the agency's inspection, to make sure that 
these security items are being taken care of.
    But, I want to end where I began by saying, I represent the 
busiest airport in the world. Passengers from every state and 
every country in the world go through Atlanta, Georgia's 
Airport. And security is critically important.
    I thank the TSA for what they're doing, and recognize it's 
always a work in progress. And I hope the Administrator will 
address some of those issues that were raised in WSB's report 
today.
    Thank you, Mr. Chairman.
    Senator Lautenberg. Thanks very much.
    I'm pleased to call on the Chairman of the Environment and 
Public Works Committee, Senator Boxer. She's very busy, as we 
all are, but she's always there ready to go to work on the next 
thing.
    Senator Boxer.

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Senator, thank you very much.
    And, by the way, thank you for your support today on that 
important bipartisan markup we had of the highway bill.
    Mr. Chairman, this is a timely hearing.
    I'm very happy to see you here, Mr. Pistole. I wanted to 
point out that I have a hearing at exactly this time over in 
Foreign Relations on the violence in Syria and, as Chairman of 
the Subcommittee, I'm going to need to leave. But I wanted to 
leave you with some very clear points, if I could.
    In California, the travel and tourism industry employs more 
than 800,000 Californians. A 2010 survey found that more than 
60 percent of travelers would take two to three more trips a 
year if the hassles in screening could be reduced without 
compromising security. Of course, that's the goal that you've 
been working on, sir.
    At a time when our nation is suffering from 9 percent 
unemployment, the potential to increase demand and increase 
jobs in our travel industry cannot be ignored. And I wrote to 
the Administrator last November in support of his efforts to 
create a new Trusted Traveler Program. And I'm excited about an 
announcement that I believe is expected shortly, of an 
expansion.
    A Trusted Traveler Program not only has the potential to 
reduce the need for invasive screening of low risk travelers. 
It could also help TSA better focus resources where they're 
needed the most. And this program called TSA Pre3 started in 
October. I'm not going to give away everything here, because I 
want you to have the chance to do that. We're going to hear 
about an expansion of this program to several other airports, 
including one very busy on in my state. If that is right, and 
I'm right on that, may I thank you publicly for that? Because 
I've been calling for this for a long time.
    And I want to reiterate--no one who supports this ever 
wants to compromise security. I was honored to be able to write 
the law that allows pilots to carry guns in the cockpit to 
protect the aircraft. I also wrote the language that expanded 
the Air Marshal Program to long haul flights. As we know, those 
flights were all long haul that were hijacked that fateful day.
    So, I am looking forward to hearing about this--reading 
about your testimony in support of the Air Marshal Service. My 
understanding is, we're robust, we're good, but I--and I know 
some of it is classified, but to the extent that we could be 
reassured on that.
    And also, to make sure that our guns in the cockpit law is 
working well, and that the training is going forward, and that 
we're not impeding those trained pilots from protecting the 
aircraft, because we all know, when worse comes to worst, the 
instruction is, unfortunately, not a good one. We'll have the 
military there shooting down an aircraft. I think the pilot 
should have every right, assuming he or she is trained, to 
protect that aircraft.
    So, Mr. Chairman, I thank you so very much. I look forward 
to reading the testimony.
    And if I'm right on this news, then I thank you so much, 
sir.
    Senator Lautenberg. Thank you very much.
    Senator Blunt.

                 STATEMENT OF HON. ROY BLUNT, 
                   U.S. SENATOR FROM MISSOURI

    Senator Blunt. Thank you, Chairman. And I'll submit some 
statements for the record.
    Thank you for your important and good work, Mr. Pistole.
    I want to talk a little bit when we get time for questions 
about this issue of TSA at airports, and what I continue to 
believe would be the importance of a private sector competitor, 
if that's what the airport wants to do. I remember this debate 
when TSA was created. And the theory was that TSA would benefit 
if the airport and TSA and everybody else knew that there were 
other options. If there are problems, whether they're problems 
like the problems at Hartsfield-Jackson, at that airport; or 
whether it's the airport in Springfield, Missouri, the 
Springfield-Branson airport that would like to go to an outside 
provider; or the Kansas City airport, which is about halfway in 
size between Springfield-Branson and the huge airport in 
Atlanta, who's had a private provider the whole time, and had 
what I thought was some unfortunate experience just even trying 
to extend that private contract. As it turned out, the courts 
agreed whenever your agency was taken to the claims court to 
talk about this. And I want to talk about that a little more.
    But all of us understand the critical importance of your 
work. I want to join Senator Boxer's comments on the importance 
of foreign travel. We're looking at ways to make the visa 
process work better, and make entry and exit from the country 
work better. There are ways to meet the security needs of the 
country and still encourage the friendship and economic impact 
that foreign travelers make. They stay longer; they spend more; 
and they invariably, in almost all cases, they like us better 
when they left than they did when they came. So, there are all 
kinds of positive repercussions here--unless the memory is how 
terrible it was getting in and out of the country. And I know 
your organization is more and more conscious of that all the 
time.
    But I, and this committee would be very interested in 
working with you to provide the encouragement and tools, and 
support you need to make that part of traveling to America work 
in a way that ensures safety, but also encourages people to 
want to come, and want to come back.
    And, Chairman, I yield back my time.
    [The prepared statement of Senator Blunt follows:]

  Prepared Statement of the Hon. Roy Blunt, U.S. Senator from Missouri
    Thank you Chairman Rockefeller and Ranking Member Hutchison for 
holding this hearing today. Securing our nation's transportation system 
is a constant challenge, and regular hearings on this subject are 
important in order to ensure that TSA is strong and agile enough to 
stay ahead of threats but not so intrusive as to burden the flow of 
commerce.
    Additionally, thank you Administrator Pistole for appearing before 
us today. I appreciate your work as you have the difficult task of 
being on the frontline of this nation's security.
    Some people forget that TSA is responsible for more than just 
securing our nation's airways. With the responsibility of securing most 
of our transportation network including our Nation's highways, rail 
system, ports and airports, TSA has its work cut out for them in this 
security climate.
    Administrator Pistole, you have the challenging task of finding and 
maintaining the balance between keeping our nation secure and 
continuing to ensure the free movement of people and commerce.
    It is this balance that is integral to a secure nation and a 
vibrant economy.
    It is easy to forget that the public and industry share in the 
goals of the TSA mission. Often times we see different sides disagree 
about the proper way to achieve a common goal.
    But it is the focus on this common goal that can be a key to 
success for TSA. Stakeholders understand the importance of security and 
can be essential in the proper implementation of security initiatives 
or changes.
    Such partnerships are at the very core of that delicate balance of 
security and the free flow of commerce.
    Simply put, more regulations do not improve security.
    Overregulation forces industry to commit resources to regulatory 
compliance rather than actually improved security.
    Despite TSA's large scope of responsibility, TSA gets the most 
recognition and scrutiny for their role at our nation's airports.
    Our airports are our primary line of defense in securing our 
airways. And it is at the airport where TSA works closely with both the 
public and the airlines.
    There are nearly 450 airports across the U.S. They range in size 
and all provide unique services resulting in unique security 
challenges.
    However since the TSA was established, TSA has only continued to 
grow into one of the largest and most expensive bureaucracies with over 
62,000 employees.
    In doing so, TSA is further removed from being the accountable, 
flexible security administration that even TSA acknowledges they need 
to be.
    And early this year, TSA ended the expansion of their Screening 
Partnership Program (SPP).
    SPP airports have the flexibility to properly merge TSA protocol 
with the unique characteristics and needs of a specific airport.
    Preserving two security screening options promotes efficiency and 
accountability in both SPP airports and airports that do not 
participate.
    Capping the program at 16 airports limits our airport security 
options to a one-size-fits-all approach.
    Our airports are our primary line of defense in securing our 
airways. Why would we reduce the number of tools they need to do their 
jobs?
    The safety of our nation's skies will not improve as long as we 
continue to limit our security options to an unaccountable, one-size-
fits-all federal bureaucracy.
    Only in Washington, D.C. do we measure the importance of something 
by how much we spend on it as opposed to the results we get.
    Again, I thank the chair and the Administrator for their hard work. 
I look forward to hearing your perspective and working together to find 
the best way to balance our security needs with privacy and economic 
needs.

    Senator Lautenberg. Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Chairman Lautenberg. Thanks 
for conducting this important meeting. And I look forward to 
hearing from the TSA about the important security measures, 
both on the cargo front and on the passenger side.
    But before I turn to that, I did want to say, 
congratulations, Mr. Chairman, to United Airlines and to Alaska 
Airlines, because just on Monday United became the first U.S.-
based air carrier to fly a domestic flight using a mixture of 
jet fuel and drop-in aviation biofuel. And beginning today, 
Alaska Airlines will operate 75 flights over the next 11 days 
with 20 percent aviation biofuel blends. So, both are pushing 
forward on this important area of aviation transportation.
    Mr. Pistole, I appreciate you being here. And in many ways 
I think you have a difficult and thankless job. And our 
nation's security and safeguarding it is such a critical and 
important issue, with over 400 different commercial airports 
and over 700 million air passengers each year. That is a huge 
challenge.
    And I know that there have been various implementations of 
technology, both at our ports--and in Washington State, ports 
are us. We move a lot of cargo container traffic. But we 
certainly believe in an international standard that will help 
us prevent dangerous cargo from ever reaching our shores. Once 
it's into one of our ports, it's already too late. So, we 
certainly want to hear what we're doing on a global basis to 
make sure that those technology deployments are happening.
    And, like my colleagues, I want to hear about, on the 
aviation side, the passenger screening and profile issues, and 
to make sure that we're meeting a variety of challenges that 
come with those responsibilities. And so, like my previous 
colleague mentioned, these security measures are important but 
it's important that we keep commerce moving as well, because 
it's critically essential, particularly at this hard-hit 
economic time to make sure that we're doing all we can to 
continue to move traffic.
    So, I appreciate you holding this hearing and look forward 
to asking Mr. Pistole some very specific questions about the 
process, both with passengers and cargo. Thank you, Mr. 
Chairman.
    Senator Lautenberg. Senator----
    Senator Ayotte. Thank you, Mr. Chairman. I'll wait to ask 
questions.
    I appreciate Mr. Pistole being here today, and for the 
difficult and important work you do to keep our country safe.
    Senator Lautenberg. Thank you.
    Senator Rubio. Let's just move to the questions. I'll waive 
my time as well.
    Senator Lautenberg. Thank you very much.
    The Ranking Member of the Committee, Senator Hutchison, is 
here.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Well, thank you very much.
    It's good to have you back since we had you for your 
confirmation. We'll see how you've weathered the storms. And, 
of course, there have been some.
    I just want to say that I think there are still kinks that 
need to be worked out for the privacy and comfort of passengers 
who are going through these new machines where you have to put 
your hands up and get photographed. And I hope that you are 
continuing to work on those things, because I do hear a lot of 
complaints about them. And having gone through them, I 
understand those concerns.
    Also I just hope that we will continue, as I think the 
Senator from Missouri said, to try to make travel a pleasant 
experience, particularly international travel where we have 
guests coming into our country and we want them to have a good 
experience and want them to come back.
    You have had a terrifically difficult job, which we know. 
And I would like to hear your statement about where you are 
finding improvements, and what your future suggestions are 
going to be.
    And with that, I'll put the rest of my statement in the 
record and listen to you, and be able to ask questions.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Hutchison follows:]

  Prepared Statement of Hon. Kay Bailey Hutchison, U.S. Senator from 
                                 Texas
    Chairman Rockefeller, thank you for convening today's oversight 
hearing on the Transportation Security Administration (TSA). This is a 
timely hearing, given we are approaching the holiday travel season.
    Today's hearing will set us on a course for initial work on TSA 
authorization legislation. It has been several years since we last 
authorized the agency and I believe it is important that we take a 
comprehensive and deliberate approach given the importance of the 
mission and policies to our national security.
    I look forward to working with Chairman Rockefeller and the rest of 
the Committee members along with you, Mr. Pistole, as your thoughts and 
priorities will be weighed heavily during any authorization process. 
Clearly, there are a litany of serious challenges and threats that need 
addressing in order to maintain a safe and secure transportation 
system.
    We must balance a secure transportation network and the free 
movement of commerce. There needs to be a check and balance in our 
methods to make sure the economy can grow and prosper under what we all 
hope can eventually be an ``unseen,'' yet highly secure and efficient, 
transportation security network.
    Given the sheer volume, complexity and international component of 
our global transportation network, finding effective and practical 
solutions is a notable challenge. We need to be focusing on bolstering 
our intelligence gathering and analysis and effectively utilizing 
proven methods such as canine teams. Across all modes, utilizing 
fundamental resources will go a long way in creating a strong domestic 
and international security network.
    Administrator Pistole, I will have several questions regarding 
aviation, but as I am sure you are aware, the issue we still hear about 
most from our constituents is the airline passenger screening 
experience. As far back as your nomination hearing, I have emphasized 
there should be a goal of making the airport screening and travel 
process more smooth and seamless for all travelers. That goal needs to 
be done in a way that improves security, but also maintains passenger 
privacy. Reports indicate that you are making changes to the airport 
checkpoint; I will be interested to hear your strategy.
    TSA is responsible for security in all modes of transportation. 
However, TSA has historically only played a supporting role with 
respect to transit and passenger rail security and other surface 
security issues, coordinating activities with the Department of 
Transportation and private stakeholders.
    I continue to be concerned that too little effort is being 
dedicated to secure our surface transportation system.
    An attack on our rail infrastructure could be crippling. While we 
have successfully avoided a domestic attack, many of our allies 
overseas have not had the same success. We simply cannot let something 
like the Madrid (2004) or India (2006) terrorism events happen 
domestically, TSA must focus more of its energy securing our nation's 
surface network.
    Across all modes, after a decade in operation, it is still my 
impression that TSA often finds itself playing catch-up, fighting the 
last battle. I think we all appreciate the difficulties and daily 
struggle of maintaining a secure system, since we all understand that 
America still faces the grim reality of terrorist threats. However, we 
also know that terrorists are going to continue to adapt their methods 
to try to circumvent our multi-layered system, we need to be looking 
ahead of those threats and have a long-term strategy that fully 
utilizes all of the tools at our disposal.
    Thank you, I look forward to the testimony.

    Senator Lautenberg. Thank you very much.
    And now I call on Mr. Pistole. And I ask you now, Mr. 
Pistole, to deliver your testimony.
    Everyone knows, I believe, that John Pistole is the 
Administrator of the Transportation Security Administration. 
And Administrator Pistole will update us on TSA's efforts to 
ensure the security of our transportation system.
    And I want to thank you for coming, Mr. Pistole. And I 
would now ask you to give your testimony.

       STATEMENT OF HON. JOHN S. PISTOLE, ADMINISTRATOR,

            TRANSPORTATION SECURITY ADMINISTRATION,

              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Pistole. Well, good afternoon, and thank you, Chairman 
Lautenberg and Ranking Member Hutchison, distinguished members 
of the Committee. It's a privilege and honor to be here today 
to testify. Thank you for that opportunity.
    When I last appeared before the Committee, we were talking 
about some risk-based security initiatives. And most of that 
was still in the formulative stage.
    Where we are now, I'm pleased to report that we have begun 
implementing several key aspects of risk-based security, and 
testing others at airports around the country, and all with a 
singular goal. And that is to provide the most effective 
security in the most efficient way.
    As this initiative expands, we must ensure that each step 
we take actually strengthens security as we continue monitoring 
intelligence that indicates terrorists' continued attempts in 
terms of conducting attacks here in the U.S. involving 
transportation assets.
    Anecdotally, last week I told Senators Lieberman and 
Collins and their committee that our officers continue to find 
four to five guns on average each day at the approximately 450 
airports monitored by the TSA--people who have carry-on bags 
that are trying to get on the plane. And in the last 7 days 
since that hearing, we've prevented over 30 more guns from 
being carried into the cabin of an airplane, including nine 
just yesterday. Nine in one day.
    Senator Hutchison. Mr. Pistole, can I interrupt you for a 
minute and ask you----
    Mr. Pistole. Yes, ma'am.
    Senator Hutchinson.--do you consider most of those 
inadvertent forgetfulness?
    Mr. Pistole. Absolutely. Yes.
    Senator Hutchison. Thank you.
    Mr. Pistole. At least that's what they would say. So, yes.
    So, because risk-based security is reducing the size of the 
haystack in which a terrorist may be hiding, we are focusing 
our resources on potentially higher-risk passengers, and the 
results thus far are positive.
    Our commitment to new and innovative technology is a key 
component of risk-based security, and our success in 
discovering other non-metallic items is greatly enhanced with 
the use of advanced imaging technology, or AIT. These machines 
give our officers the best opportunity to find both metallic 
and non-metallic threats, and successfully detect items as 
small as a coin or a wrapped piece of gum--in this case, a 
Nicorette piece of gum.
    Now, AIT is not perfect, and we continue working closely 
with industry to improve its detection capabilities. But, it's 
a combination of technology, policy, and methodology that 
drives risk-based security.
    Last month we began TSA Pre3, a voluntary passenger pre-
screen initiative that's being tested in four U.S. airports 
today, placing more focus on pre-screening individuals who 
volunteer information about themselves prior to flying. Because 
we know more about them, TSA Pre3 travelers are able to divest 
fewer items, which could include leaving on their shoes, a 
belt, a light jacket, as they proceed through security 
screening.
    Of course, we will always incorporate random and 
unpredictable measures throughout our security process, and at 
no point is a traveler guaranteed expedited screening. We don't 
want terrorists gaming the system. Initial feedback for TSA 
Pre3 in the test airports has been favorable, with over 45,000 
travelers having gone through the expedited screening process.
    Today, I am pleased to announce the expansion of these 
efforts to select checkpoints in three more airports, as 
Senator Boxer alluded to. Las Vegas will be the first in 
December. And then LAX, Los Angeles International, and 
Minneapolis-St. Paul in early 2012. So, that will get us up to 
seven airports.
    Efforts to expand identity-based screening also include a 
crew member screening system which helps positively identify 
and verify the identity and employment status of airline 
pilots. Under this program being tested at seven airports, tens 
of thousands of airline pilots have processed through this 
expedited screening, recognizing them as the most trusted 
people on an aircraft.
    We're also evaluating an expanded behavior detection 
initiative that began this fall at Boston Logan Airport, and is 
also being tested in Detroit. In this initiative, behavioral 
analysis techniques are used by specially trained officers to 
determine if a traveler should receive additional screening.
    This innovation used by many security agencies worldwide 
enables officers to better verify or dispel suspicious behavior 
and anomalies. Preliminary analysis from Boston shows an 
increase in detecting potentially higher-risk passengers. We 
frankly need additional information, additional data, to 
understand if this trend is statistically significant.
    In August, we implemented new nationwide screening 
procedures for children 12 and under, allowing them to leave 
their shoes on and go through a less intrusive security 
screening. And the results from this nationwide screening 
enhancement show a sharp reduction--though not elimination--of 
pat-downs for children, and families have responded very 
favorably to these changes.
    I'm also pleased to report the reinitiation of the Aviation 
Security Advisory Committee, with 24 members having been named 
by Secretary Napolitano. I look forward to meeting with them 
and hearing their views and recommendations.
    Let me close with these thoughts. Innovation, partnerships, 
and a commitment to the pursuit of excellence--these are the 
watchwords of TSA as we move into 2012.
    Thank you for the opportunity to be here today.
    [The prepared statement of Mr. Pistole follows:]

   Prepared Statement of John Pistole, Administrator, Transportation 
     Security Administration, U.S. Department of Homeland Security
    Good morning Chairman Rockefeller, Ranking Member Hutchison, and 
distinguished members of the Committee. Thank you for the opportunity 
to testify today about the Transportation Security Administration's 
(TSA) on-going efforts to develop and implement a more risk-based 
approach to secure our Nation's transportation systems. When I last 
appeared before this Committee this past June, our plans to implement 
additional risk-based security (RBS) measures were still in their 
formative stages. I am pleased to report that we have now begun 
operational testing of several key aspects of risk-based security that 
I will describe.
    TSA employs risk-based, intelligence-driven operations to prevent 
terrorist attacks and to reduce the vulnerability of the Nation's 
transportation system to terrorism. Our goal at all times is to 
maximize transportation security to stay ahead of evolving terrorist 
threats while protecting privacy and facilitating the flow of 
legitimate commerce. TSA's security measures create a multi-layered 
system of transportation security that mitigates risk. We continue to 
evolve our security approach by examining the procedures and 
technologies we use, how specific security procedures are carried out, 
and how screening is conducted.
    Since I became TSA Administrator, I have listened to ideas from 
people all over this country, including our key stakeholders and 
security professionals, and I have heard from our dedicated workforce 
and our counterparts abroad about how TSA can work better and smarter.
    Based on this feedback, last fall, I directed the agency to begin 
developing a strategy for enhanced risk-based security (RBS), which is 
based on the simple premise of focusing our limited resources on the 
passengers we know least about. I am pleased to report to the Committee 
today that in the past few months we have taken concrete steps to 
implement key components of the agency's intelligence-driven, risk-
based approach to security, advancing the agency toward the ultimate 
goal of providing the most effective security in the most efficient way 
possible.
TSA Pre3<SUP>TM</SUP>
    This past October, TSA began testing a limited and voluntary 
passenger pre-screening initiative with a small known traveler 
population at four U.S. airports (Miami, Dallas-Ft. Worth, Detroit, and 
Atlanta). This pilot program will help assess measures designed to 
enhance security, by placing more focus on pre-screening individuals 
who volunteer information about themselves prior to flying in order to 
potentially expedite the travel experience. By learning more about 
travelers through information they voluntarily provide, and combining 
that information with our multi-layered system of aviation security, we 
can better focus our limited resources on higher-risk and unknown 
passengers. This new screening system holds great potential to 
strengthen security while significantly enhancing the travel 
experience, whenever possible, for passengers.
    During this pilot, TSA is using pre-screening capabilities to make 
intelligence-based risk assessments for passengers who voluntarily 
participate in the TSA Pre3<SUP>TM </SUP>program and are flying 
domestically from one of the four airport pilot sites. Eligible 
participants include certain frequent flyers from American Airlines and 
Delta Air Lines as well as existing members of U.S. Customs and Border 
Protection's (CBP) Trusted Traveler programs including Global Entry, 
SENTRI, and NEXUS who are U.S. citizens and are flying on participating 
airlines. The data collected from these pilot sites will inform our 
plans to expand the program to include additional airlines as well as 
other airports that participate in CBP's Global Entry program, once 
they are operationally ready.
    TSA pre-screens TSA Pre3<SUP>TM </SUP>passengers each time they fly 
through participating airports. If the indicator embedded in their 
boarding pass reflects eligibility for expedited screening, the 
passenger is able to use TSA's Pre3<SUP>TM </SUP>lane. Because we know 
more about these passengers, TSA Pre3<SUP>TM </SUP>travelers are able 
to divest fewer items, which may include leaving on their shoes, 
jacket, and light outerwear, as well as other modifications to the 
standard screening process. As always, TSA will continue to incorporate 
random and unpredictable security measures throughout the security 
process. At no point are TSA Pre3<SUP>TM </SUP>travelers guaranteed 
expedited screening.
    Transportation Security Officers (TSOs) in the four pilot airports 
are receiving very positive feedback from TSA 
Pre3<SUP>TM </SUP>travelers while the two partner airlines have 
successfully demonstrated the technical capabilities required to 
participate in the program, thus paving the way for other airlines to 
follow. As we learn from these pilots, we are working closely with 
other airlines and airports to determine when they may be operationally 
ready to join. We are also working with CBP to ensure that individuals 
who want to apply for Trusted Traveler Programs are able to do so in an 
efficient manner.
Known Crewmember
    We hold airline pilots responsible for the safety of the traveling 
public every time they fly a plane. It makes sense to treat them as our 
trusted partners. To build on our risk-based approach to security, we 
are currently supporting efforts to test another identity-based system 
to enable TSA security officers to positively verify the identity and 
employment status of airplane pilots. The Known Crewmember program is 
the result of a joint test between the airline industry (Air Transport 
Association) and pilots (International Airline Pilots Association), 
which allows uniformed pilots from 22 airlines to show two forms of 
identification that are checked against a database called the ``Cockpit 
Access Security System,'' which confirms identity. After more than two 
months into the pilot program, and with deployments nearly complete at 
the seven participating airports, over 59,000 uniformed pilots have 
been cleared through the process with an average of nearly 1,900 
approvals per day. Both Known Crewmember and TSA Pre3<SUP>TM </SUP>are 
clear examples of TSA's commitment to focusing its attention and 
resources on those who present the greatest risk, thereby improving 
security and the travel experience for passengers across the country.
Expanded Behavior Detection
    Beginning this fall, TSA took steps to expand its behavior 
detection program that builds on existing Screening of Passengers by 
Observation Techniques (SPOT), which has grown since 2003 to include 
over 160 airports. Under the pilot program, TSOs employ specialized 
behavioral analysis techniques to determine if a traveler should be 
referred for additional screening at the checkpoint. The vast majority 
of passengers at the pilot airport checkpoints experience a ``casual 
greeting'' conversation with a Behavior Detection Officer (BDO) as they 
pass through travel document verification. This additional interaction, 
used by security agencies worldwide, enables officers to better verify 
or dispel suspicious behavior and anomalies.
    Preliminary analysis from Boston shows an increase in the rate of 
detection of high-risk passengers. However, additional data is required 
to understand if the trend seen in the Boston data is statistically 
significant and replicable at other airports. TSA is currently 
conducting analyses with the DHS Science and Technology Directorate to 
estimate the number of cases required for validation. In the meantime, 
we are expanding this pilot to Detroit in order to collect additional 
data on incorporating enhanced real-time risk assessments into our 
other layers of security.
Screening of Children 12 And Under
    This past August, TSA modified its screening procedures to provide 
more options to resolve alarms that may occur during the screening 
process of passengers 12 and under. With nationwide rollout complete as 
of late September, the data has demonstrated a reduction--though not 
elimination--of the need for a physical pat-down for children that 
would otherwise have been conducted to resolve alarms. We maintain our 
standard procedure that when a pat-down is required of any minor, a 
parent or guardian must be present and the screening may occur in 
private. TSA has also implemented additional measures to expedite the 
screening process where possible including allowing passengers 12 and 
under to leave their shoes on.
    By streamlining procedures for these lower risk passengers through 
programs like these, TSA is better able to focus its finite resources 
on those who pose higher risks to transportation. We are continuously 
evaluating lessons learned from these modified procedures to determine 
our next steps as we consider future procedures to strengthen and 
streamline the security screening process for other low-risk 
populations.
New Document Assessment Technology
    In addition to testing new procedures for low-risk populations, TSA 
is also employing technology to automatically verify passenger 
identification documents and boarding passes, providing TSA with a 
greater ability to identify altered or fraudulent documents. This 
technology, known as Credential Authentication Technology--Boarding 
Pass Scanning Systems (CAT-BPSS), will eventually replace the current 
procedure used by security officers to detect fraudulent or altered 
documents. CAT-BPSS enhances security and increases efficiency by 
automatically and concurrently comparing a passenger's ID and boarding 
pass to a set of security features to verify their authentication and 
ensure that the information on both match. The system also verifies the 
IDs of airline personnel and can screen a wide range of travel 
documents. TSA began testing the technology in July 2011 and will 
deploy and evaluate the technology at TSA Pre3<SUP>TM </SUP>airports in 
the near future.
Conclusion
    TSA will continue to enhance its layered security approach through 
state-of-the-art technologies, expanded use of existing and proven 
technology, better passenger identification techniques and other 
developments that will continue to strengthen aviation security. I 
thank you for the opportunity to appear before you today, and I look 
forward to answering your questions about the evolution of TSA's risk-
based, intelligence-driven approach to security.

    The Chairman [presiding]. Administrator Pistole, you seem 
to be in some ways in a no-win situation of late. Of course, 
that's, I guess, your usual condition, isn't it?
    The TSA's been criticized for an over-reliance on physical 
screening. For a period of time we went through the pat-down 
and all that, and everybody got upset. And then, you've been 
urging us to pursue a more risk-based method based on the 
passengers.
    Now TSA gets criticized by some of the various aspects of 
this approach. Clearly, TSA needs to utilize a variety of 
tactics to achieve best results.
    I just want to ask you a question. You'll never satisfy the 
American public while trying to keep them safe. Isn't that 
basically true?
    Mr. Pistole. The key, obviously, is to provide the best 
security in the most professional way that respects privacy and 
civil liberties, and that is our challenge every day. With 
approximately 1.8 million encounters, passengers traveling 
every day at the 450 airports it is, there is an opportunity 
for somebody to not be 100 percent satisfied, as in any 
business or any government activity. So, yes, it is a 
challenge.
    The Chairman. My traveling is not as international or 
urbane as some members of this committee. But actually, urbane 
for me gets to be when I get out to Jackson Hole, Wyoming. But 
I have yet to see a TSA member--I don't want to seem like your 
flack here--be rude. On a number of occasions, and sometimes 
involving translational problems, you know, they do the best 
they can. I've seen them go to the farthest point of politeness 
extending themselves even though there's a long line waiting. 
And on a number of occasions I've found that I've gotten their 
names and said, who is your supervisor? I wanted to write them 
and tell them what a good job you're doing. So, it's very 
interesting.
    People complain and then I, you know, travel. Granted not 
as much as I used to before I messed up my knee. But, my 
reaction is a very good one. Now, you change your 
methodologies. You change different technologies. I can 
remember, I think, 5 years ago going through Dulles Airport and 
putting my finger on a pad, and I was told that that will be 
operational in a period of time. And that was four or 5 years 
ago. I have no idea whether they're using that out there or 
not, or why. But, in other words, your people have to adjust.
    Mr. Pistole. Right.
    The Chairman. Your people have a certain degree of 
turnover. Some of that is economic, although you've tried your 
best on that. And the other is just that other opportunities 
occur and they take them. Are your people keeping up with what 
it is that you want them to do?
    Mr. Pistole. Yes. Thank you, Chairman. Thank you for those 
positive comments.
    I know the men and women of TSA who work the checkpoints 
every day appreciate that feedback any time it is positive, 
because the negative ones are the ones that are heard in the 
press.
    Clearly it is a paradigm shift for TSA in our risk-based 
security initiative to get away from the one size fits all that 
looks at everybody as a possible terrorist. And so, the 
approach that we are taking, which I have buy-in from around 
the country from our workforce, is to exercise a little common 
sense, frankly, to look at the person as much as the prohibited 
item, with the key being, let's look for those items that could 
cause catastrophic failure to an aircraft.
    And so, really that's two components: some type of 
electronic initiator, coupled with some type of mass that could 
be an explosive--or it may be a liquid explosive. But it's 
those two things.
    So, the challenge is, how do we distinguish between those 
that we assess, make a judgment about? Recognizing this is risk 
mitigation. It's not risk elimination.
    So as we try to mitigate or manage the risks, can we treat 
those that we know more about because they voluntarily shared 
information with us, such as through Customs and Border 
Protection's Global Entry Program, or through the TSA Pre3 
Program that we're doing now.
    If we can do that on the front end, then we know more about 
them, we can make better judgments at the checkpoint. So, that 
expedited screening possibility that I mentioned over 45,000 
people have already gone through, that allows us to focus our 
limited resources on those that may pose a higher risk, such as 
the ones that we know only what's in Secure Flight--name, date 
of birth and gender--or that we know the most about because 
they're on the terrorist watch lists.
    So, here's how I start every day: Senior Leadership Team at 
TSA headquarters, with an intelligence briefing from around the 
world, from the CIA, NSA, FBI, all the security services around 
the world, to say what are the terrorists thinking? What 
technologies are they looking at? How are they trying to defeat 
our defenses, our layered defenses? And so, how can we use that 
in a smart, informed fashion? So, that's what the whole risk-
based security initiative's about.
    The Chairman. Look, I thank you. Granted, that was somewhat 
of a softball. I was trying to settle into my position. I'll 
try to ask you a more interesting question in my next go 
around.
    Mr. Pistole. That was an excellent question, Mr. Chairman.
    The Chairman. Senator Hutchison?
    Senator Hutchison. Mr. Pistole, in February you changed the 
longstanding determination of prohibiting transportation 
security officers from collective bargaining. And while the 
determination prohibits these screeners from striking or 
engaging in slowdowns, it does allow for collective bargaining 
on non-security employment issues.
    Could you update us on the status of that, and what you 
anticipate to be the issues that are involved in a collective 
bargaining when striking and slowdowns are not possible, but 
hours and the kind of work required are? I'd like to know if 
that's going to hamper in any way the effectiveness of your 
ability to say exactly what needs to be done for security 
purposes.
    Mr. Pistole. Thank you, Senator. And the short answer is, 
no. It will not affect security in any way.
    The determination that I announced on February 4 of this 
year was to do two things: One, to recognize a FLRA decision 
that required that we hold an election for the purposes of 
exclusive representation, but without regard to collective 
bargaining. That frankly didn't make a whole lot of sense to 
me.
    So, my determination was to allow the security officers to 
vote on whether they wanted collective bargaining--because 
there was already 12,000 or 13,000 paying union dues without 
collective bargaining--and then, if they voted in favor of a 
union, then to move forward with collective bargaining at the 
national level.
    So, that election was held. It was close between two 
unions, AFGE and NTEU. There was a runoff election, and AFGE 
won that. And so, since that time this summer, we've been 
working through a hybrid labor management relationship that is 
unique, both in the Federal Government and, I believe, in the 
private sector, because of the authorities given to TSA under 
the enabling legislation from November 19, 2001.
    So, what that allows us to do is take off any issues 
related to security, and focus on the issues that I was hearing 
in town halls around the country that were important to the 
security officers. Things like pay and other benefits were 
important, but that's not something that I agreed to be subject 
to collective bargaining, along with the right to strike or 
things like that, which would affect security.
    So, what we've been in discussions with the union on are 
those things that are important to them, such as appeal of 
disciplinary matters, of how should those be handled, things 
such as bidding on shifts that they work, issues about uniforms 
and things like that--all non-security issues. So, we are to 
the point of having ground rules be finalized. And then we are 
ready to move forward with them to address those issues that 
are important to our security officers.
    Senator Hutchison. So, your view, is that this is going to 
be able to work out in a way that will not in any way endanger 
the security part of their jobs?
    Mr. Pistole. Absolutely. And again, I have to credit the 
Congress for the insight and the prescience in terms of, the 
enabling legislation that gave that broad discretion authority, 
recognizing the inherent security issues that were unique to 
TSA in the aftermath of 9/11. So, thank you for that.
    Senator Hutchison. Let me ask you about the program for 
known travelers to the three new airports. Is it your intention 
to continue to add more airports as you see the results of what 
you have now and how it's working? And are you, as you are 
adding airports, putting new processes in place because you've 
learned from something that worked or didn't? And if so, what?
    Mr. Pistole. Yes. Thank you, Senator. Yes.
    The goal is, after we expand to Las Vegas, LAX and 
Minneapolis, to look at other airports with other carriers. 
This is an ongoing process. For example, several major carriers 
are going through mergers right now, whether it's United/
Continental, Southwest/AirTran. And so, their IT systems are 
such that they're not quite ready to move forward. But they 
will be in the first quarter of next year in some measure.
    And so, I hope to be announcing additional airlines and 
airports that would be able to accommodate those passengers, 
both in those frequent flyer programs at elite levels, and then 
also those CBP Global Entry people who sign up, pay a fee, 
through that program.
    So, yes. The goal is to expand it as broadly as possible 
while maintaining the highest level of security; and, again, 
all done on a voluntary basis.
    Senator Hutchison. Thank you, Mr. Chairman.
    Thank you, Mr. Pistole.
    Mr. Pistole. Thank you, Senator.
    The Chairman. Thank you, Senator Hutchison.
    And now we go to Johnny Isakson, the Senator from Georgia.
    Senator Isakson. Thank you, Mr. Chairman, very much.
    In the investigative report that you have seen and I have 
seen that was done by WSB in Atlanta, there were instances 
under, an undercover camera caught instances of one employee 
swiping their ID card and then holding a turnstile so three 
other people could go through. As I understand it, that's a, 
that's referred to as either escorting or piggybacking. Can you 
explain what of that would be permissible, and what would not 
be permissible?
    Mr. Pistole. Well, as a general rule, neither would be 
permissible.
    The question which, I don't have the details on this 
particular instance are, a situation where all four may be 
authorized access, and it's simply one person holding the door 
as a courtesy for the other three, as opposed to swiping. They 
should each swipe their badge if that's their required access, 
so there's a record of who is coming and going.
    I don't have the details of that for this particular 
matter, but that's part of what we're looking into.
    Senator Isakson. Can you, do you know, or--and I don't 
know, so, I'm asking. And you may not either. But, at 
Hartsfield-Jackson, was that the first encounter they would 
have with a security check? Or would there have been a previous 
encounter with a security check before they got to that point?
    Mr. Pistole. I don't know specifically. It is airport 
specific, but at some airports they would go through an 
exterior security checkpoint, either the vehicle or the 
individuals. I simply don't know on this one.
    Senator Isakson. Because I believe part of the reason for 
swiping rather than having ID security is also so you know 
who's at work and who isn't at work, and they get credit for 
the hours worked or not worked.
    So, on, in terms of Gate Gourmet and Gate Safe, who are the 
two entities in terms of the food and service, do you normally, 
once you--I guess you approve a contractor, and they go through 
a certain process to be approved for security, I would guess 
that's true?
    Mr. Pistole. Well, so, generally what happens is, we 
establish the security requirements for the catering company 
that the airport enters into a contract with. So, we're not 
necessarily involved in that. But we do establish a security 
regimen, and then inspect to those standards to make sure they 
are following those standards.
    Senator Isakson. So, you have standards the airport has to 
meet. The airport does the approval of the----
    Mr. Pistole. Right.
    Senator Isakson.--the provider, whomever it is. Do you 
randomly or periodically inspect those--TSA now----
    Mr. Pistole. Yes.
    Senator Isakson.--the TSA randomly inspects those people to 
make sure they're compliant?
    Mr. Pistole. Yes. So, we do hundreds, if not thousands, of 
inspections across the country involving all number of things, 
but as it relates to catering companies, we do both random and 
unpredictable inspections--surprise inspections, both with the 
airport and the catering companies to assess whether they are 
following those security regimens, those protocols that we 
have.
    Senator Isakson. When I ran my company for years we had a 
little process called mystery shopping----
    Mr. Pistole. Right.
    Senator Isakson.--where we would have mystery shoppers that 
would test the performance of our employees in terms of service 
and courtesy.
    Mr. Pistole. Right.
    Senator Isakson. Do you use that type of approach from time 
to time?
    Mr. Pistole. We do. And the Inspector General and the GAO 
also use those in terms of covert testing looking at what is, 
what we consider as part of the insider threat--people who have 
access to secure areas of airports. Yes.
    Senator Isakson. OK. With regard to the inspection 
process--and I will say at Hartsfield-Jackson they have done a 
great job of expediting the throughput. I travel every week, 
sometimes twice a week, and it's been very good. But, I'm 
wondering about the radiation. I think last week you in another 
committee hearing said you were re-evaluating the effects of 
radiation in terms of the new inspection. Can you talk about 
that for a second?
    Mr. Pistole. Yes. And since that time, Senator, of course 
the testing had been done before we ever deployed the advanced 
imaging technology, the backscatter technology, that, all the 
independent scientific studies that we had demonstrated that 
the minimal, the really minute amount of radiation that was 
being emitted is well below anything that would ever reach even 
the minimal standards of safety. And the equivalent was 3 
minutes at altitude flying, the natural radiation that you 
receive is the equivalent of going through one time.
    That being said, I had a response to a question from 
Senator Collins, who asked for a new independent study done by 
DHS. And since that time, there has been a draft IG report that 
I just received, but the IG has allowed me to speak about it 
here today--which confirms our previous findings based on their 
study and their analysis. And they made, I think, five or six 
recommendations which we agree with. But none of those go to 
the actual safety issues which have been called into question.
    So, my strong belief is that those type of machines are 
still completely safe; they always have been. So, I want to 
reassure the traveling public on that. And if it determines, if 
the determination is that this IG study is not sufficient, then 
I will look at it still, yet another additional study.
    Senator Isakson. My time is up. Thank you and thanks for 
your prompt response to my request.
    Mr. Pistole. Thank you, Senator.
    The Chairman. Thank you, Senator.
    Senator Lautenberg.
    Senator Lautenberg. Thanks, Mr. Chairman.
    I tried a palace coup but the team didn't spring to----
    [Laughter.]
    Senator Lautenberg. I know where the power is, Mr. 
Chairman.
    [Laughter.]
    Senator Lautenberg. Mr. Pistole, one of the many benefits 
of rail travel is the ability to easily and efficiently get on 
the train, and get moving to your destination. What can we do 
to improve security without sacrificing convenience to the 
large number of passengers that use rail and public 
transportation?
    Mr. Pistole. I think, Senator, it really comes down to the 
partnership that we have, for example, with the Amtrak police, 
and their very effective deployment of both uniformed officers 
and canines at certain points and certain stations as people 
enter, some random bag searches. But then, also, their actual 
presence on the trains, for example. So, I think that's 
significant.
    And it's also the visible intermodal protection response 
efforts that we do, the VIPER Teams that--again, we know from 
terrorist debriefings that they are dissuaded by three things: 
closed circuit TV--if they're not a suicide bomber; uniformed 
officers; and canines.
    So, it's that combination of those three things that we try 
to use in terms of the--whether it's Amtrak police or the Metro 
Transit Authorities; whether New Jersey or New York--those that 
have the front line responsibilities, we can augment their 
resources, either through training or through personnel, or 
through the hardening of targets that we've done--for example, 
on the PATH tunnels between New Jersey and New York.
    Senator Lautenberg. As I mentioned in my opening remarks, 
we don't spend as much as one would think with the volume of 
traffic that there is on rail, but----
    Mr. Pistole. Senator, if I could just comment on that. So, 
if we just look at our budget, that's true. But when we look at 
the grant funding that we provide, which is not included in our 
budget, then that ratio changes somewhat significantly, and 
it's much more akin to what the actual risk scores that we 
provided in a classified setting. Say, here's where we assess 
the aviation risk; here's where we assess the surface risk. And 
so, when you look at the total funding, frankly, the several 
billion dollars that we provided in surface transportation 
through grant funding since our creation, that ratio comes out 
much more consistent with how we assess risk.
    Senator Lautenberg. Last year, GAO found that TSA needed to 
do a better job of providing transit security to the areas most 
vulnerable to attack. What do we need to do to make adjustments 
to that process, to ensure that funds truly are spent in the 
highest risk areas?
    Mr. Pistole. One of the things that we've done this year, 
Senator, is to enter into a Memorandum of Agreement with FEMA, 
who actually administers the grant funds. In the agreement, 
they accept our risk assessment and then allocate funds based 
on the risk assessment--and demonstrated need through the 
grants application process. And so that, we found, worked much 
better, this year than in previous years, because we are 
putting the money where the highest risks are. So, obviously, 
the New York metropolitan area, including parts of New Jersey, 
received more money than, perhaps, other areas that were 
assessed as being at lower risk.
    Senator Lautenberg. Yes. Well, I hope that we're going to 
be pretty observant about that as we come into this next fiscal 
year, because we still have that vulnerability, most risky two-
mile stretch between the airport and the harbor. And, as is, as 
we see the review of funding, we're looking at significant cuts 
proposed in the areas of grant giving under the Homeland 
Security budgets. And I would ask to hear from you as to what 
you think these cuts are going to mean in terms of your ability 
to take care of things.
    Mr. Pistole. I think in a nutshell, Senator, it really 
comes down to making sure that we are investing smartly in the 
highest risk areas. We can't be all things to all people, all 
places, at all times. We can't mitigate all risks. So, let's 
make sure that--based on the intelligence, based on everything 
we know--that we are putting our money, our U.S. taxpayer 
money, toward those highest risks.
    Senator Lautenberg. Mr. Chairman, may I have the courtesy 
of another quick question?
    During the first 3 months of this year, there were an 
unusually high number of breaches at Newark Liberty. At a 
meeting in April, you and the newly appointed Federal Security 
Director at Newark Airport indicated TSA would provide a report 
on specific actions taken at Newark to improve security and cut 
breaches. Can you tell me when we can expect this report to be 
available?
    Mr. Pistole. It should be available in the next, let's say 
30 days. I just saw the draft yesterday. I believe it's ready. 
I spoke with Don Drummer, the Federal Security Director there 
this morning about it, and he is ready to brief you as soon as 
your schedule allows.
    Senator Lautenberg. Thanks Mr. Chairman.
    Thanks, Mr. Pistole.
    The Chairman. Thank you Senator Lautenberg.
    Senator Blunt?
    Senator Blunt. Thank you, Mr. Chairman.
    Mr. Pistole, I want to talk almost exclusively about the 
Screening Partnership Program.
    And I may have some written questions that I'll want to 
submit if we don't get through with this discussion today, 
which we may not.
    Senator Blunt. When that program was created, it was 
created intentionally to see what would happen if there is a 
private sector alternative out there. Now, who--does the 
airport come to you if they want to try that, and they say, 
we'd like you to bid this process for us with someone other 
than the TSA that's running it now? Or, I guess they might also 
say someone other than the private sector person that's running 
it now. But, you bid that out, is that right?
    Mr. Pistole. Yes. The airport would come in and say, we 
would like to consider something, somebody other than TSA to 
run our airport operations. In the past we have looked at 
those--and, of course, we have the 16 that were, from early on, 
that are continuing, and with San Francisco being the largest 
of those; Kansas City, obviously, being the second largest.
    Senator Blunt. Mm-hm.
    Mr. Pistole. And then a number of smaller airports. So, 
that is a process.
    And if I could just give you a little bit of background on 
my decision from January of this year: I am clearly interested 
in any best practices, any efficiencies, anything from the 
private sector that can help us do our job better.
    You look--we've invested billions of dollars in the private 
sector in terms of technology and ways of accomplishing our 
mission, including H.R. issues, IT issues, in addition to what 
you see at airports--the in-line cargo systems, the baggage 
systems; we also check 100 percent of all bags for explosives. 
So, we've invested taxpayers' billions of dollars in private 
industry to do just that.
    That being said, as far as the workforce, my approach is 
that I believe that TSA should be a Federal counterterrorism 
agency focused on preventing another 9/11 or something like 
that from happening. I have greater flexibility with TSA 
airports in terms of surge capacity in case there is a natural 
disaster like Katrina, or something like that--but if I need to 
move people, I can't move any of the airport personnel because 
they are a private company and that, and there's, many of them 
have their own rules and things, so I'm limited in that.
    The other part is trying to push out classified 
intelligence to as many people as we can, so I've expanded the 
number of people within TSA who have access to classified 
information to help them make better judgments and decisions.
    So that being said, that's my general philosophical 
approach. But I am open to new applications from airports. 
We've approved, I believe, five renewals of those 16 this year, 
so I want to keep those in place, assuming they're doing the 
best possible job.
    I would note, even those privatized airports, there's been 
some arguments made that say, well, we could save lots and lots 
of money if they were privatized. Obviously, taxpayers' money 
is still being used to pay those private airports. It's just 
not going to Federal employees. It's going to private 
employees.
    So that being said, in each of the 16 airports that we 
have, each of those, save one very small airport--actually 
costs the taxpayers more than if it was a TSA-run airport. That 
is because we are paying basically the same wages, but then 
there's the overhead from the private company that--obviously, 
it's a for-profit business--and so, we have those 
considerations.
    Senator Blunt. Is the GAO totally in agreement with that 
analysis? I think they say you don't consider everything you 
should consider in that comparison.
    Mr. Pistole. GAO and others look at four different aspects 
of the costing, and so it depends on what, if you're comparing 
apples to apples or one of the four different models, including 
such items such as, are they counting retirement costs--you 
know, pension funds and things like that?
    Senator Blunt. Right. OK. So, you've capped this at 16, is 
that right?
    Mr. Pistole. Not capped it. That's what it is now. So we 
actually have, I denied five back in January. Two of those five 
have come in for reconsideration. What I'm looking for--is 
there a clear and substantial advantage to the taxpayer and to 
the traveling public, obviously, in terms of security and 
efficiency? So those will be, those are being reviewed, and 
we'll probably have a decision in the next 30 days on those 
two----
    Senator Blunt. And three of those five, the, three of the 
Montana locations, I think actually, your predecessor asked 
them to apply for the private program, is that?
    Mr. Pistole. I'm not sure about that. I have to look into 
that, Senator.
    Senator Blunt. I think that's right, I think I can make the 
comment that TSA went to three of these airports and said, why 
don't you apply for the private program? And then in January of 
last year you said, we're not going to let you go to the 
private program.
    Mr. Pistole. I'll have to look into that, Senator, I'm not 
sure about that.
    Senator Blunt. You know, I think the view that the private 
competitor doesn't give you the flexibility as a government 
employer is outside of the idea that actually the government 
would do a better job if the airport and the government both 
knew that the airport had another option. And I'd ask you to 
consider that philosophy as part of looking forward.
    We would all understand transferring people from place to 
place and a little more government control. But you have a lot 
of control and you're the one that issues that contract.
    Mr. Pistole. Right.
    Senator Blunt. And frankly, competition is a good thing in 
almost all places. And I believe in the 16 airports that you've 
got it's been a good thing. I don't know of any Kansas City or 
San Francisco performance areas that are outside the norm of 
TSA.
    Mr. Pistole. No. And you're right, Senator. They, out of 
the 16, some are higher in security testing; some are lower in 
customer satisfaction. So, it's a range. So yes. It's accurate 
to say that, I would say----
    Senator Blunt. That they're normative.
    Mr. Pistole.--better or worse. So, yes.
    Senator Blunt. Right. I'm out of time. I'll submit some 
more questions on this.
    Mr. Pistole. Thanks, Senator.
    Senator Blunt. And it's a topic that I'm very interested 
in, and I know the philosophy of having that out there.
    Mr. Pistole. Right.
    Senator Blunt. And I'm glad to hear you say it's not 
necessarily limited to 16, though I think the overall 
philosophy that the government can do this better is not 
necessarily the right philosophy.
    Thank you for the extra time, Mr. Chairman.
    The Chairman. Thank you, Senator Blunt.
    Senator Cantwell?
    Senator Cantwell. Thank you, Mr. Chairman.
    Mr. Pistole, there's a story in Washington State about a 
gap in security related to railcars and sulphuric acid and 
other powerful corrosives that can release toxic vapors. I 
don't know if you've read or seen about this, but basically a 
train was left idle but running for 6 hours, at least 
physically unattended. So, that brings up a couple of 
questions.
    What can TSA do to work with the Federal Railroad 
Administration to make sure that there aren't these kind of 
gaps in security in the system?
    Mr. Pistole. Thank you, Senator. Yes, I understand the FRA 
has initiated an investigation based on that to see what safety 
issues were addressed.
    Obviously, our focus is on security from the standpoint of, 
is what's on that train considered a toxic inhalation hazard? 
Is it something that can be used by terrorists as a weapon, if 
you will, against our people? And so, we've worked very closely 
with the rail industry--and in fact, over the last 2 years, 
they, with our strong support and encouragement, have reduced 
the toxic inhalation hazard in urban areas, which is the 
primary hazard, by over 90 percent by doing simple things, such 
as securing the locomotive through various means; not parking 
the trains overnight. For example, it used to be done just 
within a half mile of here, of the Capital. So, not leaving 
those railcars with toxic inhalation hazards in them close by 
where they could be used as some type of weapon. So, that's 
been a positive.
    I know a little bit about the situation, basically what 
I've read. So, we will work with FRA to make sure that those 
type of situations do not repeat.
    Senator Cantwell. So, you do think it's a problem?
    Mr. Pistole. I think it's an issue that needs to be 
addressed both from a safety and security perspective, yes.
    Senator Cantwell. OK. And then, just that, you know, that 
high threat urban area?
    Mr. Pistole. Yes.
    Senator Cantwell. This is a picture of Puget Sound, and 
what that definition looks like.
    Mr. Pistole. Yes.
    Senator Cantwell. But in this particular case, this train 
was left 30 miles from a city of nearly a half a million 
people. And, I think, Tacoma, which is right here, would take 
it kind of personally that they are left out of a high threat 
urban area. So, it's a very populous area, so you had to draw 
the line somewhere. But the notion that somebody could leave a 
train with those kinds of chemicals unattended in Tacoma would 
be shocking for people to find out. So, I think this, too, 
needs to be addressed, this high threat area definition, and 
the materials that, you know, need further regulation, both of 
those. Would you agree?
    Mr. Pistole. Yes, absolutely, Senator. I'll look into 
those, and especially as it relates to Tacoma, if that is the 
way that the rules are written, I'll review those with our 
folks in FRA.
    Senator Cantwell. And I think in this case, the train was 
left outside of Spokane or not far from Spokane, so I mean, I 
don't think Spokane qualifies for this either, and yet there's 
a lot of rail traffic that goes through there. And I think a 
lot of people in Spokane would say, wait a minute, we're not 
part of this protection?
    Mr. Pistole. Right.
    Senator Cantwell. So if you could get us answers, that 
would be great.
    Mr. Pistole. I will do that, Senator.
    Senator Cantwell. Thank you.
    Mr. Pistole. Thank you.
    Senator Cantwell. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cantwell.
    Senator Ayotte.

                STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. Thank you, Mr. Chairman.
    I would like to ask you, Mr. Pistole, to give us an update 
on the report that was issued by the GAO addressing the 
transportation worker identification card, and the fact that 
TSA has failed to implement and evaluate the program to make 
sure that only qualified individuals are having access to our 
ports and NTSA-regulated facilities.
    And one of the biggest concerns of the GAO report was that 
you had not evaluated the effectiveness of the program. And 
when you last came before our committee, I expressed concern 
that we were giving people a perception of greater safety, 
rather than the reality of greater safety, if we weren't 
measuring the effectiveness of this program.
    So, can you tell us where we are 6 months later with 
respect to the GAO findings on the TWIC program?
    Mr. Pistole. Yes, thank you, Senator. So, the good news 
about the TWIC program is that we are doing vetting and 
background checks for approximately 2 million workers--
particularly dock workers, port workers. So, we know who those 
people are, and we're not allowing people who are on a 
terrorist watch list or anything to get those cards. Some do 
have criminal records, and there is a list of disqualifying 
felonies that would keep somebody from getting a TWIC card.
    The challenge has really been in the deployment of the card 
readers, which makes it so it's not simply a flash pass, if you 
will, so you can just show the card, because there's not a 
viable card reader.
    The U.S. Government had a number of challenges working with 
both industry in terms of developing the card readers that 
could withstand conditions across the U.S.--for example, in 
Portsmouth or perhaps in New Orleans, or even Anchorage or 
something. So, the, part are those challenges.
    The others was collecting enough data from the dock workers 
themselves to say, OK, is this going to work? Do you have to 
actually enter the card? Do you have to, you know, do a key? Or 
something like that.
    So the GAO report you referenced, I think they had six 
recommendations. We agreed with those recommendations. Our 
challenge is to make sure we can get our process done so the 
Coast Guard, which has responsibility for actually operating 
the card readers once they are installed, along with the port 
authorities and the companies, have a viable system that is not 
simply a flash pass or something that appears to give better 
security than it does.
    So right now, you're absolutely right. It is not, the 
intent of Congress has not been completed to provide the best 
possible security at the ports and it is a continuing process.
    Senator Ayotte. So you would agree me we still have a long 
way to go?
    Mr. Pistole. I would agree with that.
    Senator Ayotte. And what about the issue of, we're in a 
position where many of the people who have been enrolled are 
actually going to be up for renewal in 2012, which I think you 
and I talked about before, which, again, millions of workers 
are going to be making trips, and sometimes it's difficult for 
them. And how do, where do they go get this renewal? And 
particularly, since we're asking them to do it in the context 
of a program right now, where we haven't measured the 
effectiveness; we don't have the card readers in place to know 
that we're really even doing anything to protect port security.
    So, can you help me with that piece of it, as well?
    Mr. Pistole. Yes, and I agree, Senator. I mean, it's 
frustrating to think that if you applied for, paid for, and 
received a TWIC card 5 years ago, and you're up for renewal and 
you haven't even been able to use it, that does not reflect 
well on the United States Government. So, that is something 
that is frankly disappointing, and I'm focused on trying to 
make sure that we can at least get the cards online, such as 
with card readers in certain ports. Some work well; some, 
again, need some refinement.
    The way forward is, as I mentioned, to get that done, get 
all this done. And what I'm looking at is, do we need to make 
some type of modification in terms of the renewals? If people 
haven't been able to use them, do we extend the time period 
until they can use them? Or some other options there.
    Senator Ayotte. Well, I would certainly be interested in 
your keeping the Committee updated going forward in terms of 
the effectiveness of this program, and whether or not we have 
to take a different approach if we aren't able to implement the 
card reader system in an effective way, so that we're not 
giving people the perception, again, of greater safety, but the 
reality is very different.
    So I appreciate your coming before the Committee today.
    Mr. Pistole. Thank you, Senator.
    Senator Ayotte. Thank you.
    The Chairman. Thank you, Senator.
    Senator Ayotte. Thank you.
    The Chairman. Next will be Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman.
    And it's good to see you, Administrator.
    Mr. Pistole. Senator.
    Senator Klobuchar. I was saying good things about you at 
our Judiciary hearing. I don't know if you heard that.
    Mr. Pistole. I did not hear that. Thank you very much.
    Senator Klobuchar. OK, well, I'm glad I got to tell you 
that.
    Mr. Pistole. Noted, thank you.
    Senator Klobuchar. It was just, we had a few grumpy 
senators--not that we ever do--about the work of your 
employees. And I just have found that there has been a huge 
change in morale, and I think you're doing a good job. And I 
also liked how you defended them when there were questions 
raised. It's always legitimate to raise questions. But it's 
been my impression, someone that works with them every day, 
that they have incredibly hard work.
    Mr. Pistole. Thank you.
    Senator Klobuchar. They have incredibly hard jobs and do a 
good job.
    Mr. Pistole. Thank you, Senator. The men and women at TSA 
appreciate that. Thank you.
    Senator Klobuchar. Thank you.
    Now, I was also pleased to see that you have chosen the 
Minneapolis-St. Paul Airport to be one of three airports where 
you're rolling out the Pre3 program. I know you've done some 
other ones, as well, to pre-screen certain known air travelers. 
We have a hub, a successful airport that we love. And I 
wondered if you could talk to us about how this will work. 
What's the timeline for the rollout?
    Mr. Pistole. Yes, thank you, Senator.
    So, Minneapolis will be in January or February, so we're 
working with the airport and the airline. Because one of the 
things we want to make sure is that we can provide what I 
believe are the services that will be attendant to this. So, 
what's involved is, at certain checkpoints it will be a 
dedicated lane for those people who are part of TSA Pre3, or 
part of Global Entry.
    And then they are allowed to go to that dedicated lane. 
They would have their boarding pass in their hand, with the 
barcode embedded with the information. And that's why the 
airlines were critical partners in this, along with the 
airport. So they would go to that checkpoint and have their 
boarding pass scanned. And assuming they're part of this low 
risk category, then they would be able to keep their jacket on, 
belt on, shoes on, their 3-1-1 liquids in their bag, and the 
laptop in their briefcase as possibilities.
    There are no guarantees in this, because we will do random 
and unpredictable searches. Even though nine times you've 
traveled that way, on the tenth time you may be asked just to 
go through regular screening. But that's the whole intent as we 
separate those that we know more about, because they 
voluntarily share information.
    Senator Klobuchar. And then, what kind of information do 
you have to provide ahead of time? Is it biometric data, or 
what is it?
    Mr. Pistole. If you go through CBP's Global Entry Program, 
including Nexus or Sentri, which is on the Canadian and Mexican 
borders, then yes. You do biometrics you submit to an 
interview; criminal history check and some other issues; which 
allows you to re-enter the country from a foreign travel on an 
expedited basis also.
    Senator Klobuchar. How many people are in it at the few 
airports you've already started it in?
    Mr. Pistole. Hundreds of thousands are eligible. Right now 
it's just domestic-to-domestic. So if, for example, somebody's 
flying from Minneapolis to Amsterdam, they would not qualify 
for this. It's only, we're going to make sure we get it right 
domestically first. There's a lot of interest from overseas, 
particularly the EU, with all the flights back and forth. But I 
want to make sure we get it right here, domestically, before we 
afford that benefit to those who may be coming here from 
overseas, and reciprocity there.
    And so, but thus far we've had over 45,000 people go 
through in the month since we started this in the four 
airports--Detroit, Atlanta, Dallas-Fort Worth, and Miami.
    Senator Klobuchar. OK. Then also, you're rolling out this 
stick image body scanner equipment, is that right?
    Mr. Pistole. Well, it's not a stick image. We call it 
generic outline of a person.
    Senator Klobuchar. Oh, that sounds better. I just call it 
what it looks like to me, but----
    Mr. Pistole. Well, yes. For those who may have artificial 
joints and things that, yes. It's a generic outline of a 
person, addresses the privacy issues that have been raised in 
the past.
    Senator Klobuchar. OK. And so, this is software? I know 
you're trying it out at the Rochester International Airport?
    Mr. Pistole. Yes so, we call it Automatic Target 
Recognition, ATR. So it's simply a software modification to the 
existing equipment with the same detection capabilities. But as 
you walk through, after you walk through, you know, the few 
seconds you're there, then you step out, you can actually turn 
and see the generic outline of a person, which is the same for 
each of you. And if there's an anomaly, that simply shows up as 
a small rectangle.
    For example, if you left, you know, a phone on your belt or 
something--not on a belt, but on some place; or, as I mentioned 
in my opening, it actually picked up a piece of Nicorette gum 
in a person's back pocket. So, it can detect small items like 
that. And so, that's the whole process. Passengers can see that 
there's no need for remote imaging vision, a room to see that 
image. And if there is an anomaly, it's simply a pat-down of 
that area. So, as opposed a full pat-down, it's simply, OK, 
there's something there.
    For example, I went through recently and they said, can we 
check under your tie? I said, yes, sure, and so, there's 
nothing there. And so, I went off.
    Senator Klobuchar. And how is it going so far?
    Mr. Pistole. Very positive feedback from travelers who 
appreciate the privacy protections that are built into it. And 
the security officers find, again, that the detection 
capabilities are the same as, or better, as we continue pushing 
industry to strengthen their detection standards.
    Senator Klobuchar. OK. And I'm going to ask my remaining 
questions just in writing. But I did want to let you know, 
Senator Blunt and I head up the tourism work that's going on in 
the subcommittee. And we've been working very well with the 
State Department to try to move some of the visa wait times.
    Mr. Pistole. Right.
    Senator Klobuchar. And so, while I know that's under their 
jurisdiction, obviously we're also focused on some of the work 
with TSA in trying to speed things up and make them as friendly 
as possible for our visiting travelers.
    Mr. Pistole. Thank you, Senator.
    Senator Klobuchar. Thank you.
    Mr. Pistole. Appreciate it.
    Senator Klobuchar. Very good.
    The Chairman. Thank you, Senator Klobuchar.
    Senator Boozman?

                STATEMENT OF HON. JOHN BOOZMAN, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Boozman. Thank you, Mr. Chairman.
    We appreciate you being here----
    Mr. Pistole. Thanks, Senator.
    Senator Boozman.--Mr. Pistole. And I know that you and your 
guys are working really hard to do the best you can.
    I'd like to take a minute, though, to share a story. I have 
a dear friend. This individual is a medical doctor. He's 91. 
He's got metastatic prostate cancer. He was actually the team 
physician when I was in high school. And when I was 14 I had a 
ruptured spleen and he's credited with saving my life. So I 
know the family very, very well.
    He was flying back to Arkansas. It's a two stop flight. And 
because of that he had to pack an extra sterile catheter. 
During the procedures, he was patted down five times by five 
different individuals. He was threatened with opening his 
sterile catheter, and also threatened in not getting onto the 
airplane. Finally, the chief TSA agent came and did the final 
pat down.
    Again, this guy's a physician. And he was decorated in 
World War II. He's seen and done about everything; doesn't 
complain about anything. But this really did shake him and the 
family that was accompanying him. They just didn't really feel 
he was treated like he should be treated. We've heard--and I 
think it actually did jeopardize him mentally and physically, 
the whole bit.
    Today, we've had testimony about the pre-flight programs 
for frequent fliers. Is there a program, or can there be a 
program, for individuals like this that don't fly very often, 
that are in this kind of shape that basically I would say we 
can use some common sense, and----
    Mr. Pistole. Right.
    Senator Boozman.--do some things to prevent these kind of 
things from happening.
    Mr. Pistole. Thank you, Senator. And I'm sorry to hear 
about his unpleasant experience. And if you'd like to get me 
his name I'll be glad to reach out for him personally to talk 
to him.
    Yes, clearly the goal is to focus on the higher risk. And, 
you know, the doctor, your friend that you described, common 
sense says is not a higher risk.
    We've actually look at age as a factor in terms of who's on 
the terrorist watch list. And I can, not in this setting, but 
in a classified setting I could tell you exactly the ages and 
the ranges. I was frankly surprised that there are some, let's 
just say, quite senior citizens who are on the watch list.
    That being said, it is such a small number that in a risk 
mitigation and risk-based security approach, we are looking at 
ways that we could recognize those of a certain age--and again, 
I won't say, because I don't want terrorists to game the 
system--but of a certain age that would be given an expedited 
screening, recognizing that we don't want somebody to be 
unwittingly used by somebody carrying something on, as has 
happened overseas in the past.
    So that is underway. I do want to manage expectations, 
because it is quite a challenge. How do we do that? And how do 
we make sure it's done evenly and consistently? But again, we 
are looking at that.
    Senator Boozman. Can we, is there the ability to, in 
training our screeners, that they recognize some of these 
objects that they come across? You know, the catheters?
    Mr. Pistole. Yes.
    Senator Boozman. You know, that are consistent with this 
kind of condition. Again, looking at these people--and I'll 
tell you to be honest with you, if an individual, you know, if 
the TSA agent can't look and kind of put all this together, if 
he can't do that with the sick and elderly, then he can't do it 
with somebody that really is a terrorist, because so much of 
this is having that ability to feel like something's right. And 
in these kind of cases you ought to feel like something--or, 
something's wrong, rather.
    Mr. Pistole. Right.
    Senator Boozman. And in this case, you ought to feel like 
this checks out; I need to do something more important.
    Mr. Pistole. It's a good point, Senator. And I would just 
note that the checkpoint, obviously, is just one of the many 
layers of security that we use. And hopefully, a putative 
terrorist is going to be on somebody's radar before they ever 
get to a U.S. airport or coming to the U.S. So, whether it's 
CIA, NSA, FBI information about investigations, hopefully that 
person will be identified. If that's not the case, and a 
person--you can call them a clean skin--a domestic terrorist 
who's not on anybody's radar, gets in the airport and tries to 
do something--then it comes down to the men and women of TSA to 
provide that security, or the Federal Air Marshals onboard.
    But the whole goal is to provide more common sense and say, 
OK, how can we differentiate those that we can make some 
judgments--again, not risk elimination, but some informed 
judgments, and say, the great likelihood is this person's not a 
terrorist. And so what can we do to facilitate their travel 
rather than hinder the travel?
    Senator Boozman. Right. And perhaps we can use the lessons 
that we've learned with the 12 and under, and say we've got a 
problem here. And, again, use the same kind of reasoning with 
somebody that's sick and elderly in their nineties, that 
obviously, looking at the age, looking at the condition, the 
things that they're carrying.
    Mr. Pistole. Right.
    Senator Boozman. And then again, like with a sterile 
catheter that you need to exist, you know, not exist, but to 
function, you know, on the rest of your trip, to put you in 
grave distress----
    Mr. Pistole. Right.
    Senator Boozman.--to have the common sense not to threaten. 
So, thank you.
    Thank you, Mr. Chairman.
    Mr. Pistole. Thanks, Senator.
    The Chairman. Thank you, Senator Boozman.
    Senator McCaskill?

              STATEMENT OF HON. CLAIRE McCASKILL, 
                   U.S. SENATOR FROM MISSOURI

    Senator McCaskill. Thank you, Mr. Chairman.
    Can you tell me, Mr. Pistole, what is the ratio of workers 
to scanning machines in the airport? How many workers does it 
take to run a machine?
    Mr. Pistole. So, if you're talking about a walk-through 
metal detector, there's----
    Senator McCaskill. No, no. I mean the scanners.
    Mr. Pistole. The advanced imaging technology. So, the 
budget--I'd have to make sure I have this right, but I believe 
it was five people that were budgeted for the advanced imaging 
technology, with the belief that we would have the ATR 
capability in Fiscal Year 2012. And so, that's what we're 
building to. And that figure is based on--and I stand to be 
corrected on that by staff if that's not right. I'm thinking 5, 
5.5.
    That is not just at one time and place, so that includes 7 
days a week for however many hours a day that airport 
checkpoint is open; includes leave; includes all those things. 
But to adequately staff, to make sure that we don't have 2-hour 
waits, then I believe that's what it is. Again, I stand to be 
corrected by staff on that.
    Senator McCaskill. Well, I've gotten different answers. 
I've gotten, Secretary Napolitano said it would be six, more 
than six screeners per machine. I think your staff has told my 
staff 6.25.
    Mr. Pistole. OK.
    Senator McCaskill. In the budget for 2012, you have 
requested a total of 275 AIT scanners and 510 positions, which 
really concerns me.
    And the reason is, is that, I am in commercial airports at 
least twice a week, almost every week. And these days it feels 
like I'm there three, four, sometimes--I took nine commercial 
air flights in less than 3 days not too long ago.
    And so I've become quite an expert on your checkpoints, 
because I have an artificial joint.
    Mr. Pistole. OK.
    Senator McCaskill. And I will tell you that many, many, 
many times they are not operable. Many, many times there is the 
strap across them.
    And I finally, not too long ago, I asked someone as I went 
through, is it possible for me to wait until someone comes back 
for the scanner? Because I try to avoid the pat-down at all 
costs. I made a joke in this committee hearing about the love 
pats I had to endure. I've got to tell you, they are, sometimes 
they are just unbelievably invasive, and very painful for me to 
endure.
    And so I really don't want to have to do that. And so I, 
the minute I hit a checkpoint, I start scanning to see if 
there's a machine. In St. Louis, where I normally go through, 
there's not one. And everybody's pretty good there, except one 
woman. And if I see her coming, I just tense up because I know 
it's going to be ugly in terms of the way she conducts her pat-
downs. And I just am confused as to why we are spending money 
on this technology if we can't afford to operate it. And then, 
second, my question is, if we're--I asked at one, is it 
possible for me to wait? And they said, ``Well, do you have an 
artificial joint?'' And I said, ``Well, as a matter of fact, I 
do.'' And they said, ``Well, we'll open it for you.'' They 
didn't know who I was. This wasn't because I was a senator or 
anything. These people had no idea who I was. I wasn't in 
Missouri. And they said, ``Well, sure, we'll open it for you if 
you have a joint.''
    And I'm thinking, well, do you have to know to ask? Because 
there's no signage that says, ``If you have an artificial 
joint, ask, and we'll open the scanner for you.'' So I need you 
to address these things.
    And why aren't we putting signs up and prioritizing those 
people that are going to set the alarm off, no matter what, 
that's going to cause extra personnel?
    And then that brings me to my final point I'd like you to 
address, and that is, why not more women? I have to wait a 
long, long time because there are always more men available to 
do the pat-downs than women. And even when I go through the 
scanner, they always catch my watch. I actually had a man, as I 
came out of the scanner that heard in his ear to check my 
watch, and I had no sleeves on. So this was all that was on my 
wrist. He said, ``I can't check it. I have to wait for a 
woman.''
    So I'm going, really? You can't look at my watch and see 
that this is not anything to be concerned about--and he said, 
``No, I have to wait for a woman.'' And so I had to stand there 
to wait for a woman, which was a long time. So if you would try 
to briefly address those issues.
    Mr. Pistole. Yes, and thank you, Senator. And I'm sorry for 
your unfortunate experiences.
    The whole idea of advanced imaging technology is twofold. 
One is to take the nonmetallic threats that we saw on Christmas 
Day 2009 with Abdulmutallab, and frankly, to increase 
throughput, because we are able to get more people through at 
least that portion of it.
    And we still have the checked bags--I'm sorry, the carry-on 
bags--that we have to review. And that, frankly, takes longer 
than it does the person. So, but we can get more people through 
the advanced imaging technology than we can through the 
walkthrough metal detector in general fashion.
    It really comes down to each airport and the staffing at 
each airport. So, if I could have staff follow up in terms of 
where you've had those issues, and I'll find out----
    Senator McCaskill. Almost everywhere there is a machine, 
it, they may only have one going.
    Mr. Pistole. Right.
    Senator McCaskill. That's the other thing. You've got to 
figure out--OK, if I get in this line, will they let me walk 
all the way over here? Almost always, with very few exceptions, 
are all the machines working at once.
    Mr. Pistole. OK. And then, I'll also follow up on the 
signage issue, and the fact that if there is a machine that you 
can simply say, may I go through that? And they say, yes, then, 
yes, obviously the traveling public needs to know that--and 
especially as we look at the holiday period coming up here.
    I'll make sure that we are clearer on our signage, and more 
readily available, on our website where we encourage everybody 
to go look at--the website, to say, here--especially if you're 
an infrequent traveler--here are the things you should be 
prepared for, not only to help yourself but all your fellow 
travelers who are behind you in line, who may be slowed down 
because you're not.
    Senator McCaskill. If you would look into those issues----
    Mr. Pistole. I will do that, certainly.
    Senator McCaskill.--and the hiring of women and the 
disproportion of men and women.
    And let me just say, I agree with Senator Klobuchar. The 
TSA workers have a hard job, and they do a good job. But I'm 
used to my privacy being invaded, because I chose a public 
career; and I'm not usually one to complain about that.
    But when you have the traveling public tell you that 
sometimes these pat-downs are unacceptable, trust me, they are 
not exaggerating. There are many times that women put hands on 
me in a way that, if it was your daughter or your sister or 
your wife, you would be upset. And just so you know that. Not 
all of them, but some of them do. And the aggressive ones are 
really unacceptable. And it's hard for me to get excited about 
flying now because of that extra requirement I have most of the 
time. Thank you.
    Mr. Pistole. Duly noted, Senator. Thank you.
    The Chairman. Thank you, Senator.
    Senator Pryor?

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. You want to get down to the bottom of your 
list?
    The Chairman. It's way down here, yes.
    Senator Pryor. OK. Thank you.
    Mr. Pistole, thank you for being here today. And I would 
like to ask a few questions.
    I saw you, what, a couple weeks ago in another committee, 
so these a little bit of follow-up, and a few gaps that I think 
we didn't cover last time.
    But let me ask about the commercial aviation passenger fee, 
you know, we know what it is. We know it's going up, et cetera. 
But you guys, you know, do charge that to commercial air 
passengers. But you also do rail and sea travel. Is there a 
passenger fee for those things?
    Mr. Pistole. Not that TSA charges. If it's a ferry, for 
example, or something that would go internationally, there 
would be a customs fee, perhaps, but I'd have to look into 
that. Then, as far as a rail security fee, no, not that I'm 
aware of.
    Senator Pryor. You know, and I do the rail every now and 
then from here in Union Station. Do you all check passengers 
routinely on----
    Mr. Pistole. We work particularly with Amtrak police on 
that, through the VIPER teams, the Visible Intermodal 
Protection Response, in terms of random and unpredictable 
screening. And they would also work with Amtrak in terms of 
training canines and funding on some issues. But, no, we don't 
have primary responsibility, if that's what you're asking. 
That's Amtrak police.
    Senator Pryor. OK. That's good. I may follow up on that 
with you on the side at some point.
    You also in your testimony talked about some pilot 
programs, like the voluntary passenger pre-screening 
initiative, the known crew member program, and the expanded 
behavior detection programs. We actually talked about these a 
couple weeks ago.
    Mr. Pistole. Right.
    Senator Pryor. And, what are your timelines on these 
programs? When will they be implemented? And how long is a 
pilot, in your mind?
    Mr. Pistole. Let me take them in order if I could, Senator. 
So, the TSA Pre3, which is currently at four airports, and 
we're expanding to the additional three--Las Vegas, LAX and 
Minneapolis-St. Paul--in December, January and February, is 
really a factor of how soon the airlines and the airports are 
ready, both from a technology and a physical checkpoint 
standpoint.
    So my goal is to expand it as quickly and as efficiently, 
with as much security as possible. It really does come down to 
our partners that I mentioned, in terms of the airlines and the 
airports, to do that.
    As far as the known crew member, with the pilots in charge 
of the aircraft, we are doing that at seven airports. We have a 
90-day pilot, which goes into January, I believe, that, 
assuming it continues to go as successfully as it has, then the 
plan is to expand that nationwide as quickly as possible. 
Again, there's some IT dependencies there that both the Pilots 
Association and the Air Travel Association have done a great 
job on, because one of the keys is that taxpayers shouldn't be 
paying for that. And so, they have stepped up, those entities 
have stepped up and done that on their own in partnership with 
us.
    When we do the honor flights, when World War II veterans 
come into Washington to visit the World War II Memorial. So, if 
you're on a charter flight, you go through identity-based 
screening. That's from any airport in the U.S. that would come 
here on a charter flight, recognizing them with the respect 
that I believe we should, as World War II veterans.
    The 12 and under is nationwide, all 450 airports. And I'm 
missing one, I think, but, so the goal is to expand all the 
risk-based security initiatives as broadly and as quickly as 
possible with the best security.
    Senator Pryor. OK. And then you have different evaluation 
criteria for each one of those, to know how they're working and 
how they can be improved.
    Mr. Pistole. And thank you for that follow-up, because the 
Assessor program is also part of that in Boston Logan and 
Detroit Metropolitan airport. And I don't know whether we'll be 
expanding that beyond those two, because I don't have enough 
data yet to make an informed judgment as to the return on 
investment for that.
    Senator Pryor. All right. Let me switch gears if I can. And 
that is, going back to 2003, the Congress directed the TSA to 
issue new repair station security rules. And there's been a 
long history--2003, 2004, 2007, 2008, now 2011--we still don't 
have the finalized rules. My understanding is the FAA just sent 
a proposed final rule for oversight of foreign aircraft repair 
stations, but it's not shown up in the Federal Register yet. Do 
you know anything about that, and could you update us on the 
progress?
    Mr. Pistole. Yes. I know that on the foreign repair 
stations that we have, let's see, a total of 742 around the 
world, 452 in Europe. And we have not, so we have done, we call 
them ``visits'' of those 400 repair stations, thus far because 
we don't have the authority to actually do inspections, waiting 
on the approval of the final rule. So that has been, as you 
noted, a very long process.
    Senator Pryor. What's the process there? Why is it taking 
so long? Because, I mean, I'm not just blaming you for this. It 
goes back to 2003. So, I mean, this has been 8 years in the 
making.
    Mr. Pistole. Yes.
    Senator Pryor. It's going to be a great rule.
    Mr. Pistole. Right. And it clearly goes to aviation 
security and the interdependencies we have as part of the 
global supply chain; and passengers obviously; the foreign 
threats that we've seen have come from overseas thus far. I 
think it's been a factor of the ability of industry to actually 
put standards in place that were both practical and achievable, 
as opposed to setting an unachievable standard, and then 
working with FAA to say, ``OK, do you recognize their repair 
station from a safety perspective?'' And then for us, from a 
security perspective.
    So we have those two standards which may or may not be 
completely consistent, as I understand. But it has taken too 
long. I mean, there's no excuse for that. And it is a critical 
component of both Congressional intent and administration 
intent for both administrations.
    Senator Pryor. Do you know when the final rule will be 
ready?
    Mr. Pistole. I don't know, but I will check that and get 
back to you.
    Senator Pryor. Thank you.
    Mr. Pistole. Yes.
    Senator Pryor. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Pryor.
    Senator Rubio?

                STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Thank you.
    Good afternoon. I know you've had a long afternoon and have 
answered a lot of questions. I'll be brief and to the point.
    I would really like to focus on tourism a little bit. 
Obviously, being from Florida we have millions of international 
travelers. I was hoping you could briefly describe to me what 
we do. Do we work with tourism, local tourism folks in 
particular, in areas with a lot of international passengers to 
train them for special procedures in the handling of 
international passengers, how that might be different from 
maybe some domestic travelers that are more familiar with our 
procedures? I mean, do you find that to be a special challenge 
in places that have a lot of international travel? And do we do 
anything different with those agents?
    Mr. Pistole. There's really two things that we've done, 
Senator, as relates to Florida. One is our TSA Pre3 program 
with Miami International, obviously with American Airlines. And 
so expediting those that we know more about.
    The other is, we've worked with a certain company that is 
huge in Orlando that has huge entertainment facilities and 
things like that--Disney obviously--to look at----
    Senator Rubio. And Universal.
    Mr. Pistole. Yes. We've, that's why I was not naming names.
    Senator Rubio. To cover all our bases here, yes.
    Mr. Pistole. That's right. In terms of customer service. 
So, it's not just international travelers, but customer service 
across the board. How do they do it? How do they also deal 
with, for example, suspicious behavior of somebody who's in 
queue, who's in line to enter a park or something?
    So we've worked with them in a number of respects to say, 
how do you do that? How do you provide the best possible 
security, but in the most customer-friendly way, to make sure 
that somebody doesn't come into a theme park with something bad 
on them?
    Senator Rubio. And then, just in terms of logistics, in 
terms of how we lay out the security lines, you know, the 
process for screening, et cetera. Here's what I found, 
particularly in Orlando. I was in Orlando last week meeting 
with their airport people. Maybe not last week, the week 
before.
    And one of the things about Orlando that's unique as 
opposed to, say, Miami, Atlanta, Dallas, is there's not a lot 
of connecting flights that connect through Orlando. Most of the 
people are coming in and they're leaving from there.
    Mr. Pistole. Their destination.
    Senator Rubio. And so I think it adds a little bit more to 
the traffic that you see through TSA, as opposed to airports 
where people are connecting and some of the traffic's happening 
behind the security lines.
    What do we do for airports like that, that are so, such a 
high percentage of arrivals and departures from that 
destination, in terms of how we lay out the security lines and 
the logistics of the process?
    Mr. Pistole. Yes, and you've hit on a great point, Senator. 
Because the physical configuration of a checkpoint is obviously 
dependent upon the layout of the airport and what the airport 
is willing to let us use in terms of space. It's not 
government-owned space, and so we have to work with the airport 
authorities and the airlines to say, how can we best fit our 
security checkpoint in? And especially as we've expanded the 
use of the advanced imaging technology, which require a larger 
footprint than the walkthrough metal detectors? So it is a 
partnership there. And it really comes down to the old adage, 
``if you've seen one airport, you've seen one airport.'' 
Because each is unique. Each present their own challenges.
    Senator Rubio. And finally, I know you've been asked a lot 
about the TSA Pre3. One of the airports is Miami, which I 
happen to travel out of a lot. Do you think I'd be a candidate 
for that?
    Mr. Pistole. I think you'd be an excellent candidate, 
Senator.
    [Laughter.]
    Senator Rubio. All right. I'll fly in.
    Mr. Pistole. Thank you.
    Senator Rubio. Thank you for your time. I appreciate it.
    The Chairman. Senator Thune?

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman. And appreciate your 
holding the hearing today on this always important subject.
    The Chairman. We timed it in order for you to be here.
    [Laughter.]
    Senator Thune. And I appreciate that.
    The Chairman. You're welcome.
    Senator Thune. Thank you.
    Let me, if I might--I know you've talked a lot about 
probably most of these subjects already. But, in terms of the 
Pre3 program, do you have any estimate of how much quicker you 
could process passengers through with that? I mean, how much 
are we talking about in terms of getting people through the 
security process?
    Mr. Pistole. Yes. Thank you, Senator. There are actually 
two aspects. One, where there's a dedicated lane, which the 
four airports that we are currently using Pre3 in, and three 
that we're expanding to here in the next 3 months, all have a 
dedicated lane. So that's one factor, that there's fewer 
people, obviously, in that dedicated lane than in a normal 
checkpoint queue. So that's one aspect. And that can be 
anywhere from a few minutes to 20 minutes or whatever it may 
be.
    The other is the actual time going through security because 
you're not, as we say, divesting as much. You're not taking a 
light jacket off. You're not taking a belt and shoes off. 
Somebody could go through literally in a matter of a few 
seconds, assuming they don't alarm on the walkthrough metal 
detector and there's nothing in their carry-on bag that would 
alarm otherwise.
    So if there are very few people in line, it could be the 
most expedited, efficient process, again, allowing us to focus 
on those that we assess as being higher risk.
    Senator Thune. When do you see this thing expanding, and 
how quickly will it move to other airports around the country? 
Might we see, start seeing this as something that's utilized in 
all the various----
    Mr. Pistole. Clearly there's a greater application in the 
largest, the category X, the Cat-X airports, those 28. And then 
the next category, category one. The two, three and four are 
the smaller airports--may not see as much, for example, in 
2012, or even in 2013 because they don't have space for a 
dedicated lane. They may just have a smaller checkpoint and 
things.
    But what we are looking at is, how can we do that in some 
of the smaller airports that would make sense from a risk-based 
approach? And there are some other options that we would rather 
talk about in a classified setting in terms of some other 
security screening options that would also facilitate this. But 
again, I don't want to go into detail on that in an open 
hearing.
    Senator Thune. The assumption at some point is that the 
people, I mean, in terms of getting to an airport before their 
flight, this would reduce significantly the amount of time that 
they would have to be there pre-flight to get cleared.
    Mr. Pistole. That's true. Although, again, I'd try to 
manage expectations.
    Senator Thune. Right.
    Mr. Pistole. There's no guarantee.
    Senator Thune. Right.
    Mr. Pistole. So I wouldn't want somebody to say, ``Well, 
I'm part of Global Entry, and so I'm guaranteed that expedited 
screening,'' because it's not a guarantee. It's a likelihood, 
perhaps even a high likelihood. But again, it's, so I wouldn't 
want somebody to cut it close and then go through regular 
screening that time just on a random, unpredictable basis.
    Senator Thune. OK. The Federal Flight Deck Officer program, 
which will allow certain crew members that are authorized by 
TSA to use firearms to defend against acts of criminal violence 
in situations where you may have individuals that are 
attempting to get control of an airport. I'm curious in knowing 
the degree that this program has been successful. And it's been 
appraised by several groups as having been highly successful, 
and yet we've not seen any expansion of that program I think 
since 2004. And so, could you kind of just comment on that 
generally? And knowing that we have a limited number of air 
marshals available, do you see that program as a cost-effective 
alternative?
    Mr. Pistole. I don't necessarily see it as an alternative, 
but I am in strong support of a program in that it's another 
layer of defense that is only partially taxpayer-funded in 
terms of us, TSA does the training for the pilots, and the 
retraining and re-certification of them.
    So yes, obviously, in those flights that we don't have 
Federal air marshals on, I think it is a good deterrent to a 
possible terrorist to think, ``Well, even if there's not a 
Federal air marshal, and I don't know that, but even if I can 
get to the cockpit somehow, then there may be an armed pilot in 
there who is going to not allow me to do what I want to do.'' 
So, I'm a strong proponent of it.
    Part of it is budget-driven, so how much do we have to fund 
the program in terms of training and resources? And then, how 
many people cycle in and out of it so it's not a stagnant 
group? But it is, I can say, thousands of pilots. And so, we 
see that as a great force multiplier for us.
    Senator Thune. OK. A final question with the Screening 
Partnership Program. My airport in Sioux Falls, for example, is 
using private security screeners. And I think you've probably 
all responded to some questions about this, and whether it's 
less expensive or more expensive.
    I'm curious in knowing when you--we're in the transition 
now between contractors. Does TSA have certain requirements or 
standards that it sets with regard to these contractors as they 
switch from one private security firm to another?
    Mr. Pistole. Yes.
    Senator Thune. And in, with respect even to the employees 
and the types of, you know, pay and benefits, those sorts of 
things, who sets that? Does TSA set that?
    Mr. Pistole. Yes. TSA sets the security standards first. So 
obviously, any private contractor has to follow our standards, 
all of our protocols, and all of that. They also have to pay a 
similar wage to what a TSA worker would make. And what we have 
found in the 16 airports--in all but, I believe, one airport--
that those contracts have been more expensive than they would 
be for a TSA workforce, for several reasons. We've driven those 
prices down over the years, and so it's closer. But it still 
does cost taxpayers more to have the privatized workforce.
    We've seen about the same results in terms of customer 
satisfaction in the covert testing that is done at the SPP 
airports as we have the other airports also. So, it's similar.
    So, what I'm looking for is, is there basically clear and 
compelling indicia or something to say, yes, there is a reason 
to change from a TSA-run airport? In the colloquy we had 
earlier, I described some of the philosophical aspects of that 
also.
    Senator Thune. OK. Thank you. I see my time's expired.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Mr. Pistole, just one more question from me.
    The ticket fee amount is about 10 bucks round trip. That's 
been true since 2001. I'm for increasing that.
    Mr. Pistole. Thank you, Mr. Chairman.
    The Chairman. But that's not part of my question. You have 
discussed a number of factors in the briefing of all of this. 
There are a lot of things going on for you. There's a lot of 
changes. The technology we've talked about here, you have that 
large LASP thing, which is, has to do with general aviation and 
many, many other costs. Could you answer two questions for me?
    Number one, to what degree do you consider, as the 
professional administrator of all of this, that you are 
protected in the budget situation because of the nature of your 
work financially? Not you personally, but your organization.
    And second, if you are insufficiently protected and you 
have a number of programs going forward which you might tell me 
that you have the funds to continue to do for the moment, but 
maybe that doesn't last very long and it takes a long time for 
these things to shake down. What would be the cost to you 
potentially if we did not raise that ticket fee?
    Mr. Pistole. Well, thank you, Mr. Chairman, for your 
support on that fee.
    You know, Congressional intent, as I understand it, when 
you created TSA 10 years ago was to have that fee pay for at 
least some of the expenses, the cost of enhancing aviation 
security across the country. And the fact that it hasn't been 
raised since that time, you know, obviously the costs have gone 
up. I am looking for every possible efficiency within TSA and 
with our partners to say, are there things that we can do that 
do not cause taxpayers to pay more and yet provide the same 
requisite level of security?
    That being said, I feel somewhat protected in the sense 
that I believe everybody recognizes that what the men and women 
of TSA do day in and day out is a critical security function 
that needs to be done. Whether everybody agrees with how we go 
about doing it is a different question. But the fact that 
something needs to be done, and whether it's TSA or private 
companies that do it, that is a cost of doing business in the 
U.S. post-9/11. So, that's the simple fact.
    Secretary Napolitano has been very strong in her support 
for not adversely impacting any security operation. So, her 
guidance and direction, and then working with OMB as to make 
sure to say that we will look at any cost-cutting from issues 
that, outside of the security arena. So, however we can do 
that.
    So, for example in the last 6 months I've been doing a TSA 
headquarters efficiency review to find ways that we can work 
more efficiently, and yet still provide the same high-level 
security that the American traveling public expects. And that 
includes things such as merging some IT functions, some 
training functions, things that just are inherent within any 
large organization.
    So, I've been working on that, put a hiring freeze on 
certain positions, capped other positions so people would not 
be promoted until we can get through this budget issue. And so, 
we're doing a number of things internally.
    Now, that doesn't make a dent in the overall deficit 
problem that the Super Committee is dealing with. But they are 
things that I think get to the baseline goal that I have for 
TSA--to provide the most effective security in the most 
efficient way.
    The Chairman. Well, I won't ask any more.
    The last question goes to Senator Hutchison.
    Senator Hutchison. Mr. Pistole, I just wanted to give you a 
chance to talk about some of the privacy issues and what you're 
doing about it. I think Senator Boozman and Senator McCaskill 
certainly related personal experiences.
    The general complaint that I hear is just about that 
machine, the AIT machine. And if there's any way that it could 
be shielded from other people watching while you're putting 
your hands in the air and that sort of thing. So, I just would 
like to----
    Mr. Pistole. Yes.
    Senator Hutchinson.--follow up on that and see, what you 
are doing to minimize that privacy invasion to the extent that 
you can, while I know you're also addressing some of these 
other issues that, you know, a lot of people feel.
    I do want to say, having said all of that, that I have been 
amazed at how wonderful the TSA agents with whom I have dealt 
have been.
    Mr. Pistole. Thank you.
    Senator Hutchison. And I had a situation once where I did 
have to have a pat-down. And you could tell they hated doing 
it, but they were doing their job. Which we all understand. And 
I just think they have been unfailingly polite in the instances 
that I've been with them. So, I want to say that.
    But also, the concerns that are raised in other areas. You 
have the isolated incidents, and I just want to know what 
you're doing to find out about things like Senator Boozman's 
constituent.
    Mr. Pistole. Well, thank you, Senator. And on behalf of the 
over 6,500 TSA employees in Texas and their family members, I'm 
sure they greatly appreciate your comments, and I will pass 
those on.
    Senator Hutchison. In National Airport.
    Mr. Pistole. In National, too.
    Senator Hutchison. In National Airport.
    Mr. Pistole. Terrific.
    Senator Hutchison. They've done a great job, you know, with 
a lot of hardships from long lines and----
    Mr. Pistole. Right.
    Senator Hutchison.--heavy traffic, and all of that.
    Mr. Pistole. And thank you. I appreciate that.
    So, I am a strong proponent of the privacy aspects of what 
we do, and recognizing that we have the terrorist intent that 
we saw on Christmas Day, and then what we see in terms of how 
can we best go about doing that. So, we recently purchased 300 
new advanced imaging technology machines. My specific direction 
was that all new purchases such as that will have the privacy 
filters built into them. We will not purchase any machines that 
do not have that automatic target recognition.
    So, the goal is to move as quickly and as efficiently away 
from the old machines that do provide that grainy image of a 
person, an individual, and give that generic outline of a 
person. So, we have 245 or so that we're already equipped with, 
the new 300 machines that we purchase will have that.
    We are waiting on the manufacturer of the other type of 
technology to finish their testing with us of their ATR 
capabilities. They haven't demonstrated that quite yet. And so 
as soon as that's done, all of those other about 240 machines 
will be converted also.
    So, the goal is to have every one of those AIT machines in 
the country have that privacy filter.
    Senator Hutchison. Well, thank you.
    I also have a constituent who is on apparently some list 
because when she travels internationally--they go to Spain 
every summer, and then when they come back, and back and forth, 
this constituent is on some kind of watch list because she's 
been detained for hours. She is 11 years old.
    Now, there's got to be something that triggers when a child 
is detained for, you know, some kind of similar name or 
something.
    Mr. Pistole. Right.
    Senator Hutchinson. And I hope so much that you can assure 
that something like that is not passing the common sense test.
    Mr. Pistole. No. So, obviously there's some issue there. 
And so, if we can get, follow up with that, and we can look 
into that and try to get that addressed.
    Senator Hutchison. Well, thank you. Thank you----
    Mr. Pistole. Thank you, Senator.
    Senator Hutchinson.--very much for your time. You've been 
very generous and stayed to the end.
    Senator Boozman. Mr. Chairman, can I just say something?
    The Chairman. Sure.
    Senator Boozman. Again, I echo what, the comments that 
Senator Hutchison said. My experience with the TSA has been 
very, very positive. I think they work really hard. And, you 
know, people don't realize--I mean, we go through the same 
screenings as everybody else. They have no idea who we are or 
whatever.
    I do think that it's important that we help you and give 
you the tools because, sadly, these episodes--like the 11-year-
old, the episode that I was talking about--these are the kind 
of things that crop up, and then that becomes the public's 
view.
    Mr. Pistole. Right.
    Senator Boozman. And so, again, I guess my message is, is 
that--I think all of ours on the Committee--is that we want to 
help you any way we can to sort through these things and make 
things as efficient as possible.
    Mr. Pistole. I greatly appreciate it, Senator.
    And thank you, Senator, also.
    Look, the bottom line is, with 1.8 million people every 
day, over 12.5 million people every week, 50 million every 
month, over 625 to 630 million a year, we do have these, I'll 
call them one-off situations. The vast, vast majority of people 
go through effectively and efficiently. And so the goal is to 
try to even reduce those one-offs so we can provide the most 
effective security in the most efficient way.
    Senator Hutchison. Thank you.
    Mr. Pistole. Thank you, Senator.
    The Chairman. I thank you also, in closing this hearing. 
And as I've told you privately and publicly, I think you're the 
perfect person for this job. I just like the fact that you're 
former FBI.
    Mr. Pistole. Thank you, Senator, Chairman.
    The Chairman. And I think that you're very serious about 
it; you're very straight with us about it; you talk our 
language; you don't obfuscate, and you don't make excuses. And 
I think it's a real pleasure to work with you. It makes me feel 
good about the future of TSA.
    Mr. Pistole. Thank you, Mr. Chairman. I appreciate your 
support.
    Senator Hutchison. And as well, I would say exactly ditto 
to that.
    Mr. Pistole. Thank you, Senator, much appreciated. I'll 
pass it on to the hardworking men and women of the TSA. Thank 
you.
    The Chairman. The hearing is adjourned.
    [Whereupon, at 4:25 p.m., the hearing was adjourned.]
                            A P P E N D I X

  Prepared Statement of Hon. Olympia J. Snowe, U.S. Senator from Maine
    Welcome back to the Committee Mr. Pistole, you're quickly becoming 
one of this committee's ``frequent fliers''. As you know, the threats 
against our transportation systems are varied, and not strictly 
confined to passengers aboard aircraft. In recent months, threats 
against rail and transit systems and our cargo shipping industries have 
been discovered.
    Indeed, I hope our conversation today will not be consumed just by 
aviation security, because as you know, TSA is also the agency given 
primary responsibility for surface and maritime security. In your 
appearance before the committee in May of this year, you rated the 
Transportation Worker Identification Credential, the ID document used 
to secure our ports, as a 3 out of 10 in terms of its success. I'd like 
to hear more about the work you have done to improve the program, and 
what steps TSA plans to take in easing the stresses the upcoming TWIC 
re-enrollment wave is sure to cause.
    These other missions are a critical element of our overall security 
picture, but TSA's primary focus remains the protection of our aviation 
assets. The introduction of Advanced Imaging Technologies or AIT 
machines was a critical misstep in the agency's public relations 
mission, and many travelers still object to their use. More troubling 
though, is the recent ProPublica report using data from the Army 
Medical Command that indicates that while the radiation from 
Backscatter AIT machines is low, it could still cause cancer. It is 
critical that TSA regain the trust of the public by fully testing these 
machines, and removing them from use until their safety can be verified 
beyond doubt. TSA should immediately remove Backscatter Advanced 
Imaging Devices from use, and rely on Millimeter Wave Detection devices 
which we know do not increase radiation risks for travelers.
    Mr. Pistole, TSA has stumbled too many times in recent years, and I 
think you would agree that public faith in the agency has suffered as a 
result. However, in the last few months, TSA has begun the 
implementation of trusted traveler programs and a special crew 
screening process. For these steps forward you should undoubtedly be 
commended. I appreciate your leadership, and your candid assessments of 
the Agency's successes and failures, but I would like to hear more 
about your plans for communicating with the traveling public as well as 
the industries that daily rely on your security credentials and 
assessments to transact business.
    As you know from your previous appearances before this committee, 
aviation security is a sensitive subject for many Americans. Travelers 
want assurances that they are safe, but privacy and convenience are 
also top concerns. I applaud your efforts to address many of these 
issues through the use of Automated Target Recognition (ATR), but 
clearly, we have additional hurdles to overcome before we have achieved 
a long-term security solution that effectively safeguards passengers 
and cargo without unduly infringing on personal privacy and 
convenience.
    Three of the Millimeter Wave Detection machines will be installed 
in Portland Jetport in January of next year, with another installed in 
Bangor International Airport. At a cost of $144,000, these machines 
come at a significant expense. As you've stated in recent hearings 
before the Senate, TSA is still discovering between 5-6 weapons a day 
in routine screenings. I'd like to hear more from you about whether the 
AIT machines are the primary method of discovery of these weapons, or 
if the baggage X-rays and traditional metal detectors are the primary 
detection methods. I am also curious about the detection rates of newly 
implemented ``chat downs'' occurring at Boston's Logan Airport. TSA is 
tasked with screening more than 50 million passengers a month, and 
resources must be allocated in a responsible and equitable fashion.
    Thank you Mr. Chairman for holding this hearing which fulfills one 
of our greatest responsibilities as a Committee, the careful oversight 
of agencies that serve the public.
                                 ______
                                 
 Response to Written Question Submitted by Hon. John D. Rockefeller IV 
                                  to 
                          Hon. John S. Pistole
    Question. As you know, requiring biometrics to identify travelers 
have been called for in various legislation including the Homeland 
Security Act of 2002 and the Intelligence Reform and Terrorism 
Prevention Act of 2004. The TSA has begun pilot programs that expedite 
passengers (Pre3) and pilots (CrewPASS and Known Crewmember) through 
security by having those individuals provide additional information to 
the agency. I know that TSA is planning to expand these programs, but 
will these expansions require biometric information to be submitted by 
the users? If not, when will this occur?
    Answer. There are currently no plans for the Transportation 
Security Administration to incorporate biometrics into checkpoint 
screening.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                          Hon. John S. Pistole
    Question 1. I understand that the TSA Pre3 program will be expanded 
to other airports in the coming years. Will all airports eventually be 
eligible for the Pre Check program? What is the timeline for expansion 
of the program?
    Answer. The Transportation Security Administration (TSA) is 
currently applying criteria, including checkpoint throughput capacity 
and Global Entry participation, to identify other airports for the 
pilot. TSA is also working with the airlines to increase known 
travelers in order for them to participate in the pilot.

    Question 2. As TSA expands the program, will TSA continue to enroll 
new participants through airlines frequent flier programs? How will TSA 
be determining what other potential passengers to include in the pre 
check program?
    Answer. Throughout Calendar Year 2012, TSA will continue to work 
with additional airlines interested in participating in TSA 
Pre3<SUP>TM </SUP>with their frequent flyer populations. TSA will 
continue to consider various intelligence and risk assessment factors 
when determining passengers eligible for the TSA 
Pre3<SUP>TM </SUP>program.

    Question 3. How will TSA leverage existing Federal resources, such 
as resources that support screening programs operated by Customs and 
Border Protection, to develop and expand TSA Pre3 in the most cost 
effective, efficient and sustainable way possible?
    Answer. As the Transportation Security Administration (TSA) expands 
TSA Pre3<SUP>TM </SUP>to additional airports, one of the criteria for 
site selection is whether or not the airport participates in the U.S. 
Customs and Border Protection's (CBP) Global Entry program in order to 
promote the efficiency and effectiveness of the pilot. For individuals 
who are interested in becoming eligible for TSA Pre3<SUP>TM</SUP>, TSA 
encourages them to visit the CBP Global Entry application website.

    Question 4. The Senate Homeland Security Appropriations bill 
includes $10 million to help TSA develop a trusted traveler program. 
How will this funding help expand the program?
    Answer. The Transportation Security Administration would use the 
$10 million in the Fiscal Year 2012 Senate Bill to modify the existing 
Secure Flight workflow to expand the TSA Pre3<SUP>TM </SUP>program 
within Risk-Based Security (RBS). Implementation within Secure Flight 
requires:

        1. Making changes to the application workflow; and

        2. Increasing capacity in the processing power (server cores), 
        development environments, and network bandwidth.

    The change in application software includes the acquisition of 
software for RBS rules creation and processing, the integration with 
the existing core Secure Flight processes, the use of additional 
population lists, and modification of the message response processing. 
Secure Flight also requires additional hardware to expand core 
processing and infrastructure to meet the performance needs.

    Question 5. In the past, there have been difficulties communicating 
to the public the latest TSA screening procedures and this has resulted 
in anger and confusion at checkpoints. How will the TSA be informing 
the public about the latest changes?
    Answer. The Transportation Security Administration (TSA) Office of 
Strategic Communications and Public Affairs (OPA) engages in a year-
round effort to communicate to the traveling public about screening 
procedures, policies, and technologies in place at airports nationwide. 
During the busy holiday travel season, OPA accelerates those efforts 
and hosts dozens of press events at airports nationwide to penetrate 
local media markets and reach infrequent passengers who are traveling 
recreationally around the winter holidays. This year, TSA has used this 
opportunity to communicate with travelers about the TSA 
Pre3<SUP>TM </SUP>program. OPA also incorporates information about the 
latest screening procedures, including those being tested as part of 
our Risk-Based Security initiative, to passengers as part of holiday 
travel messaging.
    Prior to the start of the TSA Pre3<SUP>TM </SUP>program, OPA issued 
a national press release and posted web copy to its public website, 
www.tsa.gov. Regional spokespeople from across the country held large 
media events at each pilot location to communicate information about 
the pilot to a wide array of travelers. TSA also leverages these 
communication tools for other screening procedures, such as the 
modified procedures for passengers ages 12 and under, the enhanced 
behavior detection pilot program, and a known crewmember pilot program 
to expedite screening for pilots.

    Question 6. Concerns have been raised about the potential health 
effects from the new whole body imaging scanners purchased by the TSA, 
particularly the backscatter imaging machines. These concerns have led 
to the European Commission recently adopting new rules, banning the 
backscatter imagining machines at all airports in Europe. What progress 
has TSA made in ensuring that these devices are safe, and have no long 
term health effects? Passengers are concerned about new whole body 
imaging technologies that they feel could violate their privacy. TSA 
has developed Automated Target Recognition (ATR) software that can 
increase the privacy of travelers that go through these machines, but 
right now this software is not compatible with the older backscatter 
machines. Will TSA develop ATR software that will be compatible with 
the backscatter X-ray machines?
    Answer. The Transportation Security Administration (TSA) does not 
have concerns regarding the use of backscatter technology. Since the 
original deployment of Advanced Imaging Technology (AIT), TSA has 
utilized Inter-Agency Agreements with the National Institute of 
Standard and Technology (NIST) and the U.S. Food and Drug 
Administration (FDA) to further validate the third party radiation 
studies that all vendors must submit prior to testing. The systems 
emitting ionizing radiation, such as those using backscatter X-ray, are 
tested at NIST and systems emitting non-ionizing radiation, such as 
those using millimeter wave, are tested by the FDA. These additional 
tests have been added to our testing process, which all systems must 
pass in order to be placed on our Qualified Products List. The AIT 
systems are tested by NIST or FDA for a minimum of 45 days before they 
are taken to the airport for the initial operational test and again 
before any major configuration changes are fielded.
    In addition, the TSA Office of Occupational Safety, Health, and 
Environment is working with Certified Health Physicists from the U.S. 
Army Public Health Command to perform radiation safety surveys of the 
deployed general-use backscatter X-ray AITs. The systems are checked 
against administrative and radiation dose requirements of the American 
National Standards Institute/Health Physics Society (ANSI/HPS) Standard 
N43.17-2009, ``Radiation Safety for Personnel Security Screening 
Systems Using X-ray or Gamma Radiation.'' All systems surveys to date 
have been found to be well below the radiation dose limits of the ANSI/
HPS N43.17-2009 standard. In addition, the U.S. Army Health Physicists 
performed a radiation dosimetry study to determine the effective dose 
to individuals undergoing screening. The analysis of the data to date 
shows that the effective dose per screening is well below the maximum 
permitted for a general-use system under the ANSI/HPS standard (maximum 
measured dose of 0.045 microsieverts (or 4.5 microrem) which is well 
below the limit of 0.25 microsieverts (or 25 microrem)). Assuming a 
person received the maximum dose measured; a person could receive over 
5,000 screenings every year without exceeding the annual radiation dose 
limit specified in ANSI/HPS N43.17-2009 (which is 25 mrem per year or 
one-quarter of the recommended public dose limit of 100 mrem per year). 
This would require an average of 15 screenings every day of the year.
    Several groups of recognized experts have been assembled and have 
analyzed the radiation safety issues associated with this technology. 
These experts have published recommendations, commentaries, technical 
reports, and an American national radiation safety standard as a result 
of their analyses. This technology has been available for nearly two 
decades, and we have based our evaluation on scientific evidence and on 
the recommendations of recognized experts. Public meetings were held to 
discuss these products with FDA's advisory panel (TEPRSSC), and the 
American national radiation safety standard was available for public 
comment both before its initial publication and before its recently 
published revision. There are numerous publications regarding the 
biological effects of radiation and the appropriate protection limits 
for the general public that apply to these products. As a result of 
these evidence-based, responsible actions, we are confident that full-
body X-ray security products and practices do not pose a significant 
risk to the public health.
    Strict privacy safeguards are built into the foundation of TSA's 
use of advanced imaging technology to protect passenger privacy and 
ensure anonymity, and TSA always looks for new technology that meets 
our security standards while enhancing existing privacy protections. 
TSA recently installed new software on all millimeter wave imaging 
technology machines referred to as Automated Target Recognition (ATR)--
upgrades designed to enhance privacy by eliminating passenger-specific 
images and instead auto-detecting potential threats and indicating 
their location on a generic outline of a person. Areas identified as 
containing potential threats will require additional screening. The 
generic is identical for all passengers. If no potential threat items 
are detected, an ``OK'' appears on the monitor and the passenger is 
cleared.
    By eliminating the image of an actual passenger and replacing it 
with a generic outline of a person, passengers are able to view the 
same outline that the TSA officer sees. Further, a separate TSA officer 
is no longer required to view the image in a remotely located viewing 
room. By removing this step of the process, screening is more efficient 
and throughput capability of the technology is improved.
    For units that do not yet have the new software, TSA has taken all 
efforts to ensure passenger privacy. To that end, the officer who 
assists the passenger never sees the image the technology produces and 
the officer who views the image is remotely located in a secure 
resolution room and never sees the passenger. The two officers 
communicate via wireless headset. Advanced imaging technology cannot 
store, print, transmit or save the image, and the image is 
automatically deleted from the system after it is cleared by the 
remotely located security officer. Officers evaluating images are not 
permitted to take cameras, cell phones or photo-enabled devices into 
the resolution room. To further protect passenger privacy, backscatter 
technology has a privacy filters that blur images. Once Automated 
Target Recognition (ATR) software has been tested and approved for 
backscatter X-ray AITs, TSA will upgrade the currently deployed units 
with ATR.

    Question 7. The incident last month, where airport ramp crew at LAX 
found a loaded handgun after it fell out of luggage is very concerning. 
It is illegal to check baggage with a gun in it without following the 
appropriate procedures. TSA staff has stated that the agency only 
screens for explosives in baggage, and it does not screen for guns. Can 
you explain how the law against improperly checking a gun is supposed 
to be enforced without TSA screening for these weapons? If TSA does not 
consider this to be an agency responsibility, who is responsible?
    Answer. Passengers checking luggage that contains a firearm are 
required to declare the firearm with the airline and must ensure that 
the firearm is unloaded and properly packaged. In the course of 
screening, if a Transportation Security Officer (TSO) has to open a bag 
in order to resolve an alarm, he or she will seek to confirm that the 
weapons have been declared and that they have been packed correctly. If 
a TSO discovers that any of these requirements are not met, the TSO 
will notify a law enforcement officer and an airline representative, 
and the local TSA Transportation Security Inspector office will 
initiate the appropriate civil enforcement action against the 
passenger. TSA may assess civil penalties against passengers who fail 
to declare, unload, or properly package firearms in checked baggage.
                                 ______
                                 
 Response to Written Questions Submitted by the Hon. Maria Cantwell to 
                          Hon. John S. Pistole
    Question 1. How does the geographic coverage of the Seattle High 
Threat Urban Area currently align with the significant population 
centers within the Puget Sound region? How would its expansion to other 
nearby urban areas, such as Tacoma, Washington, impact the safety and 
security of freight rail and shipping operations?
    Answer. In 2008, the Transportation Security Administration (TSA) 
identified 46 High Threat Urban Areas (HTUA) with the publication of 
rail security transportation regulations (49 C.F.R. Part 1580). The 
geographic coverage of these HTUAs is generally defined as an area 
encompassing the core city and a ten-mile radius from the city border. 
This definition is consistent with the descriptions of eligible 
metropolitan areas identified in the Fiscal Year 2006 Urban Area 
Security Initiative (UASI) grant program. While the geographic coverage 
of the metropolitan areas identified in the UASI program have since 
expanded in scope, TSA has elected to maintain the boundaries as 
defined in the rail security regulations. The expansion of the size of 
the Seattle HTUA to encompass all or portions of the City of Tacoma 
would not have a material impact on rail security. A review of the rail 
security-sensitive material (RSSM) shipments subject to the provisions 
of the transfer of custody requirement shows that only six shipments in 
the last 12 months were delivered by rail in the Tacoma area and none 
originated in this area. As TSA's rail security regulations are focused 
on the security of RSSM shipments when transferred from the original 
shipper to a railroad carrier, transferred from one railroad carrier to 
another, and when delivered to a final destination within an HTUA, the 
limited number of occurrences of these transfers in either the Tacoma 
or Spokane areas does not warrant an expansion at this time of the 
scope of the defined HTUAs.

    Question 2. Despite a significant population and heavy freight rail 
traffic, the Transportation Security Administration (TSA) does not 
consider Spokane, Washington, a High Threat Urban Area. What was TSA's 
reasoning for excluding Spokane from this designation? How would a new 
High Threat Urban Area in this region impact the safety and security of 
freight rail and shipping operations?
    Answer. The Transportation Security Administration (TSA) has used 
the list of areas eligible for the Urban Area Security Initiative 
(UASI) as the basis for its list of freight rail High Threat Urban 
Areas (HTUA). Seattle is the only city in the State of Washington that 
has been consistently eligible under the UASI grant program.
    A review of the rail security-sensitive shipments moving through 
the Spokane metropolitan area showed that no such shipments were 
delivered to, transferred within, or originated from Spokane within the 
past 12 months. As TSA's rail security regulations focus on the 
security of shipments when they are transferred from the original 
shipper to a railroad carrier, transferred from one railroad carrier to 
another, or delivered to their final destination, the limited number of 
occurrences of these transfers in the Spokane area does not currently 
appear to warrant an expansion of the scope of the defined HTUAs.

    Question 3. The Transportation Systems Sector-Specific Plan annex 
to the National Infrastructure Protection Plan, released in 2011 by 
your agency, states: ``Certain materials not currently classified as 
RSSM [rail security-sensitive materials] may have the potential to be 
used as weapons of mass consequence during transportation. A need 
exists to specifically assess the potential for these materials to be 
exploited in the physical state in which they are commonly 
transported.'' To that end: Has such an assessment been performed for 
sulfuric acid and liquid petroleum gas and, if not, are those materials 
slated for consideration in the future? If so, what was the result of 
TSA's assessment? In general, what are the costs and benefits of adding 
new materials to the current list of Rail Security-Sensitive Materials 
(RSSM) in terms of efficiency of freight movement and the safety and 
security of freight rail and shipping operations?
    Answer. The Transportation Security Administration (TSA) has 
assessed the properties of sulfuric acid and Liquefied Petroleum Gas 
(LPG) and the potential security risks they pose in bulk rail 
transportation. A release of sulfuric acid is not considered to be a 
significant security threat to widespread populations as airborne toxic 
material. Sulfuric acid does not meet the criteria of a material that 
is poisonous by inhalation as defined in the hazardous materials 
regulations. Sulfuric acid, while it is a very corrosive material, has 
a very low vapor pressure that does not present hazard to the general 
population upon release; a release of a rail tank car quantity of 
sulfuric acid would result in a pool that presents a local contact 
hazard, due to the corrosive nature of liquid sulfuric acid with the 
skin and eyes. While some aerosolization of sulfuric acid may occur 
during its release, depending upon the method of rupture, it is 
expected that the droplets would settle to the ground in a localized 
area near the release site.
    TSA has also assessed the properties of LPG and the potential 
security risk it poses. While LPG is a flammable gas and does have the 
potential to explosively combust in certain circumstances, the security 
risk in rail transportation is relatively low when compared to 
liquefied compressed gases that are toxic. Studies by the Federal 
Bureau of Investigation and other agencies revealed that it would be 
difficult to weaponize containers of LPG due to the chemical and 
physical characteristics of the material. Other factors also influence 
the assessment of security sensitivity including the method of 
transportation and the methods that could be employed to weaponize the 
material.
    Whereas highway shipments of LPG may be driven to close proximity 
of the intended target, rail shipments of LPG are confined to a fixed 
pathway. For this reason, TSA and the Department of Transportation have 
identified LPG and other similar compressed flammable gases as 
security-sensitive materials when they are transported in bulk by 
highway, but not when shipped by rail.
    TSA is cognizant of the costs associated with the special 
provisions that rail shippers, carriers, and receivers must bear if 
they ship, transport, or receive materials regulated as security-
sensitive. Before proposing adding any additional materials to this 
list, TSA would need to conduct further analysis to develop estimates 
of the security benefits.

    Question 4. At the hearing, we discussed the investigative report 
that included videotape of several trains carrying materials including 
sulfuric acid and liquid petroleum gas at different locations across 
Washington State that had their engines idling and were apparently left 
unattended. Regardless that the specific materials do not fall under 
TSA's jurisdiction, it does raise questions about lax security 
protocols that can create opportunities for those who want to do harm 
using materials that do fall under TSA's jurisdiction.
    Mr. Pistole, how can TSA's surface transportation inspectors 
provide better oversight to avoid these types of security lapses?
    Answer. As noted, incidents such as the one in this scenario are 
not specifically prohibited by Federal regulations. TSA does have 
regulations (49 CFR 1580.107) in place that require railroads to have 
an employee present when certain hazardous material shipments are first 
offered for transportation, are interchanged with other railroads in 
identified high threat urban areas, and are at the point of delivery in 
identified high threat urban areas. In addition, there are Federal 
safety regulations that require certain practices for idling 
locomotives and trains with no crew onboard. Those safety regulations 
are intended to ensure that a train will not unintentionally move. If 
the required safety procedures are followed, a number of relatively 
complicated steps would be required to put the train in motion. TSA has 
examined the security risk associated with idling, unattended trains 
and determined that such a scenario is relatively low risk from a 
security perspective. TSA will continue to monitor and evaluate the 
security risks to freight railroad operations, including the practice 
of idling, unattended locomotives to determine any future actions that 
may be necessary.
    TSA works with the rail carriers to educate their employees and to 
find ways to reduce the vulnerability of security sensitive material, 
including identifying alternative processes or procedural changes that 
can reduce vulnerabilities. TSA conducts rail corridor assessments in 
urban areas to identify potentially vulnerable rail operations, such as 
points where trains are temporarily left unattended while they await a 
new train crew. In many cases, a minor change in the location or timing 
of a crew change can greatly reduce the risk exposure of a train or 
critical material. TSA will continue to work with the rail industry and 
its government partners to identify and minimize the potential risks in 
freight rail transportation.

    Question 5. What steps will TSA take to ensure that these practices 
are not widespread across the freight rail transportation system for 
cargo that does fall under your jurisdiction?
    Answer. While TSA has jurisdiction related to security for all 
freight rail transportation, regardless of cargo, current regulations 
focus on high risk concerns. For example, for Toxic Inhalation 
Hazardous (TIH) and other rail security-sensitive materials, TSA has 
promulgated regulations (49 C.F.R. Sec. 1580.107) that require the 
secure transfer of custody and attendance of these shipments when they 
are originally picked up by the railroad, when they are delivered to a 
customer in a High Threat Urban Area (HTUA), when they are transferred 
to another railroad in a HTUA, or when they are transferred to another 
railroad outside an HTUA when it is known that the rail car will go 
through a HTUA before reaching its final destination.

    Question 6. There have been media reports that the TSA has not been 
as careful as it needed to be in evaluating the health implications 
associated with the use of Advanced Imaging Technology (AIT) for 
passenger screening at airports. Later this month ProPublica and PBS 
are releasing the results of a joint investigation soon that suggests 
significant risks were ignored. What steps did the TSA take to evaluate 
the potential health risks associated with AIT machines before 
deploying them? My understanding is that airport AIT machines are not 
considered medical devices. As a result, they are not subject to the 
regulations required for diagnostic medical imaging equipment. Did the 
producers of AIT machines have to submit clinical data to the FDA 
showing the device's safety? Was independent safety tests performed on 
the AIT machines? Are you taking any other measures to ensure the 
safety of the AIT machines once deployed in the field?
    Answer. The Transportation Security Administration (TSA) properly 
tested and evaluated Advanced Imaging Technology (AIT) for detection, 
operational, and safety suitability. Millimeter wave technology 
screening is safe for all passengers, and the technology meets all 
known national and international health and safety standards. 
Furthermore, the energy emitted by millimeter wave technology is 
thousands of times less than the limits in the Institute of Electrical 
and Electronics Engineers (IEEE) C95.1 IEEE Standard for Safety Levels 
with Respect to Human Exposure to Radio Frequency Electromagnetic 
Fields, 3 kHz to 300 GH and guidelines from the International 
Commission on Non-ionizing Radiation Protection.
    General-use backscatter technology was evaluated by the Food and 
Drug Administration's Center for Devices and Radiological Health, the 
National Institute of Standards and Technology, and the Johns Hopkins 
University Applied Physics Laboratory. All results confirmed that the 
radiation doses for the individuals being screened, operators, and 
bystanders were well below the dose limits specified by the American 
National Standards Institute/Health Physics Society.
    TSA's current safety protocols require all equipment manufacturers 
to comply with nationally-recognized safety standards to ensure the 
safety of both passengers and operators. Each general-use backscatter 
X-ray AIT unit undergoes a system inspection and radiation survey 
before it leaves the manufacturing facility. The manufacturer must 
perform a radiation survey on each unit once it is installed in the 
airport. Additional radiation surveys are performed once every 12 
months; whenever a unit is moved; after any maintenance action that 
affects radiation shielding, shutter mechanism, or X-ray production 
components; and after any incident that may have damaged the system.
    TSA partnered with Certified Health Physicists at the U.S. Army 
Public Health Command (Provisional) to conduct independent radiation 
surveys and inspections to confirm the regular testing performed by the 
equipment manufacturer.

    Question 7. I understand you have been working with Secretary 
Napolitano to improve security partnerships with foreign allies since 
the Christmas Day and Yemeni based bomb plots. I have a strong 
appreciation for these efforts--SeaTac Airport is a major international 
gateway, and an incident there would have a chilling effect on commerce 
in my state. Within the confines of this public forum, could you give 
me a better idea of the efforts you are pursuing with foreign 
governments and international organizations, such as the International 
Civil Aviation Organization (ICAO), to strengthen international 
aviation security? What are the major obstacles you are encountering 
with foreign governments and international organizations? Has the TSA 
given appropriate consideration to tightening the standards they use to 
certify security at foreign airports or increasing its oversight of 
security compliance at foreign airports?
    Answer. Within the Department of Homeland Security (DHS) the 
Transportation Security Administration (TSA) works with the 
International Civil Aviation Organization (ICAO) and appropriate civil 
aviation authorities of foreign governments to address aviation 
security concerns on passenger and cargo flights. TSA supports ICAO's 
Aviation Security Branch and the U.S. Ambassador to ICAO through 
membership and leadership on working groups and ad hoc study groups on 
aviation and supply chain security. TSA's Office of Global Strategies 
leads the United States delegation on the ICAO Aviation Security Panel 
of Experts, which is the body that advises the ICAO Council on 
strengthening international aviation security standards and best 
practices. TSA supports ICAO through capacity development efforts to 
help ensure that states are trained to address security vulnerabilities 
identified through ICAO's Universal Security Audit Program (USAP) and 
sustain an acceptable baseline level of security. Through active 
participation in the ICAO, bilateral engagement and with capacity 
development, TSA supports ICAO and its Contracting States by helping 
implement the objectives of ICAO's Aviation Security Declaration. TSA 
also works bilaterally with individual states to improve compliance 
with ICAO Annex 17-Security Standards and Recommended Practices (SARPs) 
which are the global baseline standards for aviation security.
    TSA responds quickly to new and emerging threats by reviewing and 
instituting new security measures and policies. There are some 
challenges with ensuring that the international aviation security 
environment keeps current with evolving security demands. TSA works 
closely and diligently with the international community in order to 
successfully address emerging threats through information sharing with 
ICAO's Aviation Security Point of Contact Network, participation on 
several key working groups, and in ICAO Regional Conferences. The ICAO 
working groups include the Threat and Risk Working Group, the 
Secretariat Study Group on Unruly Passengers, Working Group on Air 
Cargo Security, and, working groups to update SARPs to address emerging 
threats. These threats include cargo, supply chain security, mitigating 
the insider threat (staff screening), updating international aviation 
security training manuals, updating the Man-Portable Air Defense System 
tool kit for use by States, updating ICAO's USAP, and furthering 
capacity development amongst Member States.
    In accordance with the requirements of 49 U.S.C. Sec. 44907, TSA 
evaluates the implementation of civil aviation security Standards 
Recommended Practices set forth in Annex 17 and Annex 14 to the 
Convention on International Civil Aviation. ICAO Contracting States are 
obligated to comply with these Standards. TSA is an active member of 
the aviation security panel that develops and proposes revisions to 
ICAO security SARPs. TSA also continuously reviews the specific 
parameters of its airport assessment criteria to ensure that the areas 
of focus, data collected, and analyses conducted accurately and 
factually capture the security posture at each foreign airport with 
direct flights to the United States. Moreover, TSA has developed a 
robust risk-based scheduling methodology to ensure that those airports 
that pose the highest risk to international civil aviation are visited 
more frequently in order to verify that mitigation measures are being 
effectively implemented and sustained.

    Question 8. The first phase to get TWIC cards in the hands of all 
those who need them to work at ports have been completed. The second 
phase, the card reader to authenticate that the person holding the TWIC 
card is who they say they are, is still a pilot project. I recognize 
that you inherited the Transportation Worker Identification Credential 
or TWIC program from your predecessors. What is the status of the TWIC 
card reader pilots? What is the Department's back-up plan if the TWIC 
card reader pilots are not successful?
    Answer. The Transportation Worker Identification Credential (TWIC) 
Reader Pilot concluded on May 31, 2011. A draft of the TWIC Reader 
Pilot final report is currently under review. Once the report is 
approved, the Secretary will forward it to Congress as required in 
section 104 of the Safety and Accountability For Every Port (SAFE Port) 
Act. The TWIC Reader Pilot was designed to test the business processes, 
technology, and operational impacts required to deploy transportation 
security card readers at secure areas of the marine transportation 
system. TSA's goals for the TWIC Reader Pilot included determining the 
technical and operational impacts of implementing a transportation 
security card reader system; determining any actions that may be 
necessary to ensure that all vessels and facilities to which this 
section applies are able to comply with such regulations; and 
performing an analysis of the viability of equipment under the extreme 
weather conditions of the marine environment. The Transportation 
Security Administration determined that it had successfully met those 
goals and concluded the TWIC Reader Pilot on May 31, 2011; therefore, a 
back-up plan is not necessary. The results of the pilot program will 
help inform the Coast Guard's reader rulemaking effort and comply with 
the requirements of the SAFE Port Act.

    Question 9. The ``Implementing Recommendations of the 9/11 
Commission Act of 2007'' required that the TSA Administrator begin 
implementation of a system to provide expedited access to sterile areas 
for flight crews. Right now my understanding is that there are two 
efforts underway to achieve this--the Known Crewmember and CrewPASS 
programs. What is the status of these pile programs?
    Answer. The Known Crewmember pilot program is a joint initiative 
between the airline industry and the Transportation Security 
Administration (TSA). This program allows uniformed pilots from 22 
airlines to show two forms of identification that are checked against a 
database called the ``Cockpit Access Security System,'' which confirms 
that the pilot is recognized for access. As of early November 2011, 10 
weeks into the pilot, more than 100,000 pilots have been cleared 
through the process, with an average of over 2,500 approvals per day.
    A similar system, the Crew Personnel Advanced Screening System, was 
approved by TSA in 2009. It is currently in operation at airports in 
Pittsburgh, Pennsylvania; Columbia, South Carolina; and Baltimore, 
Maryland.

    Question 10. My understanding is that the White House Office of 
Management and Budget is reviewing TSA's proposed rules resulting from 
its Supplemental Notice of Proposed Rulemaking on the Large Aircraft 
Security Program? Is this the case? If so, what is the timeline and 
process from here? According to press accounts, Douglas Hofsass, one of 
TSA's deputy assistant administrators said ``the new version will focus 
on securing the aircraft, knowing who the passengers are, vetting the 
pilots and allowing an appropriate weight that allows the operators the 
flexibility to run their businesses and gives the TSA some security 
assurances, particularly based on what weight of aircraft poses a 
threat.'' Could you please elaborate on that statement for the 
Committee?
    Answer. The Supplemental Notice of Proposed Rulemaking (SNPRM) is 
currently under administrative review by the Department of Homeland 
Security (DHS) and the Transportation Security Administration (TSA). At 
this time, TSA estimates the SNPRM to be released for public comment in 
2012.
    After considering comments on the Notice of Proposed Rule Making 
(NPRM) issued in 2008 and meeting with stakeholders, TSA decided to 
revise the proposals in the NPRM. TSA is considering alternatives to 
several proposals based on its review of the comments received.

    Question 11. The Federal Flight Deck Officer (FFDO) has been 
recognized as an extremely successful component of the layered aviation 
security system in the U.S. While the program includes many thousands 
of armed pilots, it is managed by a very small number of people and was 
negatively impacted by insufficient budget in the past year. Do you 
have a plan to make sure training is available to new applicants to the 
FFDO program? What about recurrent training for existing FFDOs?
    Answer. In Fiscal Year 2012, the Transportation Security 
Administration (TSA) Office of Law Enforcement plans to offer training 
to an estimated 250 new Federal Flight Deck Officers (FFDOs) as well as 
provide recurrent training to thousands of pilots.

    Question 12. Currently, commercial aviation passenger pay a $2.50 
security fee per segment flown, limited to $5 per one-way flight. The 
fee was established after the 9/11 terrorist attacks to help fund the 
cost of increased aviation security. The President has proposed to 
effectively double the fee now and triple it to $15 by 2017. What 
percentage of aviation security costs are covered by the current fees?
    Answer. In Fiscal Year 2011, approximately 25 percent of aviation 
security costs were covered through collections from the Transportation 
Security Administration (TSA) September 11th Security Fee (9/11 Fee) 
and another 5 percent of aviation security costs were covered through 
collections from the TSA Aviation Security Infrastructure Fee (Air 
Carrier Fee).

    Question 13. What percentage of aviation security costs would be 
covered under the President's plan?
    Answer. Under the President's proposal to the Joint Select 
Committee on Deficit Reduction, the way in which the fee is collected 
is changed, moving from a ``per enplanement'' to a ``per one-way trip'' 
structure. As such, passengers would only be charged once per one-way 
trip, as opposed to the current structure in which passengers can be 
charged up to twice per one-way trip. This results in a maximum fee of 
$7.50 in 2017, a fee increase of $5.00 for those currently paying $2.50 
for a non-stop flight, and an increase of $2.50 for those currently 
paying $5.00 for multiple enplanements (i.e., connecting flights) 
during a one-way trip. It has been estimated that TSA aviation security 
fees would recover approximately 75 percent of aviation security costs 
over ten years, some of which would be returned to the General Fund as 
mandatory savings, and the rest of which would be applied as offsetting 
collections to TSA's appropriations.
    Airlines have raised concerns that they will not be able to pass 
these fees through to consumers and will have to absorb the additional 
cost. The result may be that they choose to further reduce capacity.

    Question 14. What do you say to the airlines' concerns?
    Answer. The President's proposal is to adjust the 9/11 Fee, which 
is paid directly by consumers (passengers) at the time of ticket 
purchase. The proposal would help to optimize a funding strategy that 
balances the cost burden.

    Question 15. Do you believe that since most airlines began charging 
passengers for checking bags, more passengers are carrying their bags 
on board, which in turn, is slowing down the work of the Transportation 
Security Officers?
    Answer. Passengers are seeking to avoid checked baggage fees by 
carrying baggage through the checkpoint. This increase in the number of 
carry-on items per passenger, the number of X-ray images processed, and 
the complexity and density of the images have resulted in longer image 
review times. The increase in passenger carry-on items has impacted 
checkpoint throughput.

    Question 16. Can you explain how the requirements set out by the 
TSA's Small and Disadvantaged Business Office are realized through the 
agency's various funding mechanisms, including procurement contracts, 
grants, cooperative agreements, and other transaction authority? Do the 
Small and Disadvantaged Business Office's goals and requirements apply 
to grant funds and transactions that are entered into with airports 
through TSA's ``Other Transaction Authority''?
    Answer. The small business goals of the Transportation Security 
Administration (TSA) Small and Disadvantaged Business Office do not 
apply to Other Transaction Authority (OTAs) because the agreements are 
typically with governmental authorities as opposed to private companies 
or universities. Nevertheless, TSA ensures that airport authorities 
follow their local procurement rules regarding preferences for small 
businesses in the subcontracts awarded under TSA's OTAs. TSA also 
requires airport authorities to submit a semi-annual small business 
utilization report on their OTA funding. The report includes contracts 
awarded to small business, service disabled veteran, veteran, woman, 
and HubZone businesses.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Amy Klobuchar to 
                          Hon. John S. Pistole
    Question 1. Administrator, as you may know, I serve as Co-Chair of 
the bipartisan Senate Tourism Caucus and also as Chair of the Commerce 
Subcommittee on Innovation, Competitiveness and Export Promotion which 
has jurisdiction over tourism. I am focused on making America more 
competitive in the global travel market and recently introduced the 
International Tourism Facilitation Act to address the problem of delays 
in the processing of tourist visas. I've been working closely with the 
State Department to find ways for them to expedite visa processing 
while maintaining a priority on national security interests. I 
understand the TSA is not involved with processing visas for 
international visitors; however, the TSA plays an important role in 
screening foreign travelers. Since maintaining security is a chief 
priority of mine, do you have any recommendations or thoughts regarding 
how best to ensure full security alongside expedited processing of 
foreign tourists?
    Answer. Foreign passengers traveling on domestic air carriers and 
international air carriers, both inbound and outbound from the United 
States, are vetted under the Transportation Security Administration's 
(TSA) Secure Flight system. Responsibilities for processing visa 
applications lie primarily with the Department of State (DOS); 
therefore, TSA defers to DOS.

    Question 2. Administrator, in the past I've heard concerns from 
airline pilots over delays they face during passenger screening. I'm 
glad to learn that TSA is working closely with the airline industry to 
develop the ``Known Crewmember'' program to expedite security for 
trusted pilots. Can you discuss the ``Known Crewmember'' program and 
the success you've had in gaining participants over the past few 
months?
    Answer. The Known Crewmember pilot program is a joint initiative 
between the airline industry and the Transportation Security 
Administration (TSA). The current program allows uniformed pilots from 
22 airlines to show two forms of identification that are checked 
against a database called the ``Cockpit Access Security System,'' which 
confirms the pilot's access. As of early November 2011, 10 weeks into 
the pilot program, more than 100,000 pilots have been cleared through 
the process, with an average of over 2,500 approvals per day.

    Question 3. Is the program currently open only to pilots, and if 
so, do you plan to expand the program to incorporate flight attendants 
and other crewmembers?
    Answer. The Transportation Security Administration (TSA) 
prioritized applying the Known Crewmember concept to pilots since they 
are in control of an aircraft. The seven airports piloting Known 
Crewmember will complete their activities in late January 2012. At that 
time, TSA will have data to assess the effectiveness of the concept and 
will determine whether it should be expanded to other crewmembers.
                                 ______
                                 
      Response to Written Question Submitted by Hon. Tom Udall to 
                          Hon. John S. Pistole
    Question. The Federal Flight Deck Officer (FFDO) program is 
arguably the most efficient, cost effective layer of security in our 
air transportation infrastructure, yet the budget has not increased 
since the program's inception. FFDOs currently receive their initial 
training at the Federal Law Enforcement Training Center (FLETC) in 
Artesia, NM. Due to budget restrictions, the TSA Office of Law 
Enforcement/Federal Air Marshal Service (TSA OLE/FAMS) has proposed 
pulling all FFDO training out of Artesia which could require building 
more facilities and hiring new instructors in other locations. FLETC 
Artesia has experienced instructors and outstanding facilities already 
in place, which includes a static aircraft for critical scenario-based 
training. Also, the room and board arrangements make it extremely cost 
effective for FFDOs, who are required to pay for all of their travel 
and meal expenses. With that in mind, please respond to the following 
questions: In today's tight budgetary environment, why isn't more money 
being directed to the FFDO program? The intent of Congress was to train 
as many pilot volunteers as possible, yet the majority of the FFDO 
budget now goes to keeping the FFDO force current and qualified. What 
are your plans for increasing the size of the FFDO program? My office 
has learned that the TSA Office of Law Enforcement/Federal Air Marshal 
Service has proposed moving the FFDO program out of Artesia, New 
Mexico. FLETC Artesia is a world class facility that has dedicated, 
experienced instructors using unique tools that include an actual 
aircraft for training scenarios. These training tools and facilities 
cannot be easily found or created. Given a limited budget, how can the 
expense of moving facilities be justified? How would the loss of 
facilities and instructor experience available in Artesia impact the 
quality of the training FFDOs receive? Artesia offers a very economical 
experience for our FFDOs who volunteer at their own expense to 
participate in a program that is critical to our aviation security. 
Rather than increase those expenses by moving facilities, has the TSA 
considered giving FFDOs more options in traveling to Artesia, such as 
re-opening the option to travel to and from El Paso, TX?
    Answer. There are no plans to move initial training for new Federal 
Flight Deck Officers (FFDOs) from FLETC Artesia, New Mexico to another 
location. FFDO Recurrent Training will continue at the Atlantic City, 
New Jersey and Dallas, Texas Training Facilities.
    The President's Budget Request for Fiscal Year (FY) 2012 request 
provided the resources necessary to sustain the FFDO Program at the 
current services level.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                          Hon. John S. Pistole
    Question 1. Mr. Pistole, I am very concerned by the recent 
ProPublica report that indicates Backscatter Advanced Imaging 
Technology (AIT) machines may increase the risk of cancer for some 
travelers. While the data is not yet conclusive, it seems that a number 
of scientists have pointed to the potential increase in cancer rates 
because of this unnecessary radiation.
    As you know, Millimeter Wave Detection machines, like those that 
will soon be installed in Maine do not use radiation to detect foreign 
objects. These devices can also be outfitted with Automated Target 
Recognition software which masks images of passengers, and increases 
privacy protections for travelers. It is my understanding that all new 
devices purchased will use Millimeter Wave Detection technology. It is 
clear that TSA has remaining concerns regarding the Backscatter 
devices. With doubts about the health and safety of Backscatter 
technology, why has TSA not removed all of these devices from service 
until their safety can be proven beyond a doubt?
    Answer. The Transportation Security Administration (TSA) does not 
have concerns regarding the use of Backscatter technology. As a point 
of comparison, one scan using backscatter technology produces the same 
exposure as two minutes of flying on an airplane. General-use 
backscatter technology was evaluated by the Food and Drug 
Administration's (FDA) Center for Devices and Radiological Health 
(CDRH), the National Institute of Standards and Technology (NIST), and 
the Johns Hopkins University Applied Physics Laboratory. All results 
confirmed that the radiation doses for the individuals being screened, 
operators, and bystanders were well below the dose limits specified by 
the American National Standards Institute/Health Physics Society. The 
Center for Study of Responsive Law asked the FDA to comment on TSA's 
statement that the general-use backscatter x-ray technology is safe for 
all air travelers and on whether the FDA believes that a more prudent 
approach for public health would be to convene an independent panel of 
experts to study the potential health impacts posed by these X-ray 
scanners. In their response, FDA states the following: ``Public health 
is protected when general-use x-ray security systems that comply with 
the applicable national radiation safety standard are used in 
accordance with the requirements of use in that standard. Using a 
general-use system as just described will result in effective doses to 
individuals below the annual dose limits recommended by the National 
Council of Radiation Protection and Measurements (NCRP) for the general 
public. In fact the dose limit per screening is far below the 
negligible individual dose set by NCRP.'' The following is a link to 
FDA's full response titled: ``CDRH response to Center for Study of 
Responsive Law inquiry on people screening, November 5, 2010''--http://
www.fda.gov/Radiation-EmittingProducts/
RadiationEmittingProductsandProcedures/SecuritySystems/ucm
238024.htm.
    Once Automated Target Recognition (ATR) software has been tested 
and approved for backscatter AITs, TSA will upgrade the currently 
deployed units with ATR.

    Question 2. Were these AIT devices rushed into service at the 
expense of the safety of the traveling public? It has already been 
established that TSA's public relations campaign was a dismal failure. 
Should the whole program have been held until proper scientific reviews 
could evaluate the operation of these devices in real world conditions?
    Answer. Advanced Imaging Technology (AIT) was not rushed into 
service. Prior to deployment, the Transportation Security 
Administration (TSA) properly tested both types of AIT for detection, 
safety, and operational suitability. Pilot testing of backscatter AIT 
began in February 2007 and of millimeter wave AIT in October 2007. The 
Department of Homeland Security and TSA selected both technologies to 
drive innovation and competition. Millimeter wave technology screening 
is safe for all passengers, and the technology meets all known national 
and international health and safety standards. The energy emitted by 
millimeter wave technology is thousands of times less than the limits 
in the IEEE C95.1 IEEE Standard for Safety Levels with Respect to Human 
Exposure to Radio Frequency Electromagnetic Fields, 3 kHz to 300 GH and 
guidelines from the International Commission on Non-ionizing Radiation 
Protection. General-use backscatter X-ray technology was evaluated by 
the Food and Drug Administration's Center for Devices and Radiological 
Health, the National Institute of Standards and Technology, and the 
Johns Hopkins University Applied Physics Laboratory. All results 
confirmed that the radiation doses for the individuals being screened, 
operators, and bystanders were well below the dose limits specified by 
the American National Standards Institute/Health Physics Society.

    Question 3. What testing has been done on machines currently in 
airports to determine the effects of long term use on the device's 
complex machinery? Are machines regularly tested to ensure they do not 
emit more radiation than is considered safe?
    Answer. The Transportation Security Administration's (TSA) current 
safety protocols require all equipment manufacturers to comply with 
nationally-recognized safety standards to ensure the safety of both 
passengers and operators. Each general-use backscatter X-ray Advanced 
Imaging Technology (AIT) unit undergoes a system inspection and 
radiation survey before it leaves the manufacturing facility. The 
manufacturer must perform an additional radiation survey on each AIT 
once it is installed in the airport. Radiation surveys are then 
performed once every six months; whenever a unit is moved; after any 
maintenance action that affects radiation shielding, shutter mechanism, 
or X-ray production components; and after any incident that may have 
damaged the system. TSA partnered with Certified Health Physicists from 
the U.S. Army Public Health Command to conduct independent radiation 
surveys and inspections to confirm the regular testing performed by the 
equipment manufacturer. The systems are checked against administrative 
and radiation dose requirements of the American National Standards 
Institute/Health Physics Society (ANSI/HPS) Standard N43.17-2009, 
Radiation Safety for Personnel Security Screening Systems Using X-ray 
or Gamma Radiation. All systems surveyed to date have been found to be 
well below the radiation dose limits of the ANSI/HPS N43.17-2009 
standard.

    Question 4. Security changes following September 11 and many of the 
subsequent attempts since have frustrated travelers who are forced to 
remove their shoes and undergo significant scrutiny during the air 
travel process. Limits on liquids, and new rules requiring removal of 
shoes may have helped address immediate threats, but inconsistent 
application of the new rules has frustrated passengers.
    In October of this year TSA debuted the ``Trusted Traveler'' or 
``Pre-Check'' program which allows frequent fliers to provide TSA with 
personal information to create a more accurate risk assessment. 
Travelers approved by the program can proceed though the checkpoint 
with their shoes on, and their laptops still in a bag. Using better 
intelligence allows security officials to more reasonably asses risk, 
and provide passengers with a more user-friendly system. How can we 
prevent the manipulation of ticket information to prevent misuse of the 
trusted traveler program?
    Answer. The Transportation Security Administration (TSA) currently 
validates passenger identification using Travel Document Checker 
procedures conducted by Transportation Security Officers. In July 2011, 
TSA conducted lab testing of Credential Authentication Technology/
Boarding Pass Scanning System (CAT/BPSS) technology, which 
automatically and concurrently verifies passenger boarding passes and 
IDs that are presented during the passenger security checkpoint 
screening process, as well as those IDs presented by airport and 
airline personnel to access sterile areas. In September 2011, TSA 
purchased a total of 30 CAT/BPSS systems from 3 vendors for testing at 
a small number of airports throughout the country. The CAT/BPSS 
technology will enhance security and increase efficiency by comparing a 
passenger's ID and boarding pass to a set of security features.
    Participants in pre-check still undergo physical screening, 
additional random and unpredictable screening measures, and document 
validation at the checkpoint. These safeguards combined with the other 
layers of security, such as Secure Flight and Behavioral Detection 
Officers, provide strong protections against manipulation of the 
passenger screening process.

    Question 5. Mr. Pistole, more than 8,000 Mainers have been issued 
TWIC cards and will soon need to renew their credentials. These workers 
who have already visited enrollment centers twice to obtain their 
original documents will, under the current process, again be required 
to take days off to travel to the centers in Bangor or Portland.
    The cards issued to mariners between 2007 and 2009 will soon begin 
to expire, and I can't help but wonder if we cannot improve upon the 
issuance process for these credentials. While we will all agree on the 
importance of securing our ports, I would like an explanation as to why 
the TWIC card can only be picked up in person, while a U.S. Passport or 
green card can be delivered via U.S. Postal Service? Will there be a 
process that allows port workers who currently hold a valid TWIC to 
renew their credential without revisiting an enrollment center? What 
``lessons learned'' will you apply during the re-enrollment phase in 
coming years?
    Answer. TSA understands Congressional and stakeholder concerns with 
requiring a second visit to the enrollment center to activate renewed 
Transportation Workers Security Credential (TWIC). In coordination with 
the U.S. Coast Guard which is TSA's partner in the TWIC program, I am 
currently evaluating aspects of the TWIC program with a view towards 
maintaining security of our ports and fairness to TWIC holders.
    Because of differences in how they are used, the U.S. Passport does 
not serve as a comparable document to the TWIC. When a traveler 
presents a passport at a Port of Entry, a Customs and Border Protection 
officer runs checks of the individual's data against government 
databases to determine if any lookouts exist and compares the 
photograph in the passport with the original source data from the 
Department of State and the individual standing in front of them. While 
a rule to require electronic TWIC readers is in development, currently 
ports are not required to validate TWICs electronically. Due to these 
differences, the issuance process--as it currently exists--for TWIC 
necessarily differs than the process appropriate for issuance of U.S. 
passports.
    TWIC continually incorporates lessons learned to improve its 
service and operations. For example, the TWIC program has been able to 
eliminate duplicative security threat assessment (STA) checks and 
reduces costs for many transportation workers through a determination 
that STAs conducted for the Hazardous Materials Endorsement (HME), U.S. 
Coast Guard Merchant Mariner License (MMD), and Customs and Border 
Protection's Free and Secure Trade (FAST) program are comparable to the 
STA required for the TWIC. As a result, these populations pay a reduced 
fee when applying for a TWIC. Similarly, under its existing contracts, 
TSA is in the process of implementing technical updates to the HME STA 
systems to allow for TWIC holders to receive comparability when 
applying for an HME. In addition, TSA has worked with its enrollment 
providers to co-locate HME and TWIC enrollment services at 
approximately20 locations across the country to enhance customer 
service options.
    TSA is also currently undergoing rulemaking that proposes to 
consolidate and harmonize existing transportation worker vetting and 
credentialing programs, to the extent possible under law, and include 
new populations that must be vetted. This rulemaking effort is known as 
the Standardized Vetting, Adjudication, and Redress Services Rulemaking 
(SVAR, or alternately known as the Universal Rule). Through this 
rulemaking, TSA intends to develop a framework that will establish 
uniform standards, processes and fees related to threat assessment 
services. The effort will also provide stakeholders, to the extent 
possible, the ability to utilize threat assessment services that have 
been previously acquired.

    Question 6. Administrator Pistole, In your last appearance before 
the full Committee in May, you gave the TWIC program a three on a scale 
of one to 10, and you clearly noted a need for improvement in the 
program's internal controls and enrollment process. During that 
conversation, we discussed the redundancy of the TWIC with other 
security credentials and screening programs, including Hazardous 
Materials Endorsement, Merchant Mariner License, and FAST cards. Please 
provide details regarding changes you plan to implement in the TWIC 
program, or with these other credentials to reduce duplication of 
screening and credentialing. In addition, how can we prevent the need 
for workers to carry a whole deck of identification cards to do 
business? Is the development of a credential much like the Federal 
``Common Access Card'' in the works? How can we eliminate the 
redundancy we find in many of these security credentials?
    Answer. The Transportation Security Administration (TSA) has 
undertaken several initiatives to identify and eliminate redundancies 
related to security threat assessments (STAs) and credentialing.
    TSA deemed that STAs conducted for the Hazardous Materials 
Endorsement (HME), US Coast Guard Merchant Mariner License (MMD), and 
Customs and Border Protection's Free and Secure Trade (FAST) program 
are comparable to the STA required for the TWIC program. This 
determination allows TSA to avoid duplicating existing STAs associated 
with the individual and to reduce fees for transportation workers who 
possess a valid HME, MMD, or FAST card. Also, individuals may satisfy 
the requirement to undergo an STA to work at an Indirect Air Carrier or 
Certified Screening Cargo Facility, by holding a valid TWIC, HME, or 
FAST, or by completing the STA required to hold certain airport and 
aircraft operator credentials. Under its existing contracts, TSA is 
implementing technical updates to the HME STA systems to allow TWIC 
holders to receive determinations of comparable STAs when applying for 
an HME. Not only does comparability with these programs allow a reduced 
fee to the worker, this option minimizes redundant STAs.
    FAST Commercial Drivers must successfully complete a full 
biographic and biometric background check plus a detailed face-to-face 
interview with CBP officers at an enrollment center before being issued 
a FAST card. In December 2008, FAST Driver data migrated from the FAST 
Driver Registration System into the Global Enrollment System (GES). 
FAST cards are Western Hemisphere Travel Initiative compliant 
documents, and can be used in non-dedicated commuter lanes when 
entering the United States. Each card consists of a Radio Frequency 
Identification (RFID) chip.
    At the northern land border, CBP and CBSA through a joint bilateral 
program conduct vetting to the drivers through law enforcement 
databases prior to clearing applicants into the FAST program and 
issuing FAST cards. By utilizing two databases, an addition level of 
threat is reduced.
    Additionally, TSA is currently undergoing rulemaking that proposes 
to consolidate and harmonize existing transportation worker vetting and 
credentialing programs, to the extent possible under law, and include 
new populations that must be vetted. This rulemaking effort is known as 
the Standardized Vetting, Adjudication, and Redress Services Rulemaking 
(SVAR, or alternately known as the Universal Rule). Through this 
rulemaking, TSA intends to develop a framework that will establish 
uniform standards, processes and fees related to threat assessment 
services. The effort will also provide stakeholders, to the extent 
possible, the ability to utilize threat assessment services that have 
been previously acquired.
    In addition, TSA has worked with its enrollment providers to co-
locate HME and TWIC enrollment services at approximately 20 locations 
across the country increasing efficiencies and providing more 
convenient service options for transportation workers. TSA is in the 
solicitation process for a new Universal Enrollment Services contract 
to replace the current, expiring TWIC contract. The new Universal 
Enrollment Services contract will:

  <bullet> Combine and consolidate enrollment centers to allow 
        individuals to apply for STAs for any TSA STA vetting programs;

  <bullet> Align with TSA's SVAR effort to allow reduced fees, 
        comparability and reduced burden of cost and travel related to 
        multiple enrollments for different programs; and

  <bullet> Provide more enrollment centers serving multiple populations 
        across a broader geographic range.

    It is important to note that transportation operators and facility 
owners make access decisions for their facilities and TSA cannot 
control the number of credentials that they require.
    TSA is currently evaluating aspects of the TWIC program with a view 
towards maintaining security of our ports and fairness to TWIC holders.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Johnny Isakson to 
                          Hon. John S. Pistole
    Question 1. During our exchange at the November 9, 2011 hearing, I 
asked about the use of so-called backscatter technology, which relies 
on radiation to detect objects hidden under the clothes of passengers. 
I referenced your statement at a prior Senate Homeland Security and 
Governmental Affairs Committee in which you said ``We will conduct an 
independent study to address that.'' You had said during our exchange 
that you were reviewing a draft report from the Inspector General (IG) 
of the Department of Homeland Security that, at first glance, confirmed 
the conclusion of previous independent studies that the scanners are 
safe for all passengers. Will you please share with us your plans to 
conduct an independent study in the wake of your review of the IG 
report?
    Answer. The Transportation Security Administration (TSA) currently 
has a Rapiscan Secure 1000 Single Pose general-use backscatter x-ray 
system undergoing a second laboratory evaluation by the National 
Institute of Standards and Technology (NIST) to ensure compliance with 
the American National Standards Institute/Health Physics Society (ANSI/
HPS) Radiation Safety for Personnel Security Screening Systems Using X-
ray or Gamma Radiation consensus standard. In addition, the U.S. Army 
Public Health Command Certified Health Physicists performed a radiation 
dosimetry study to determine the effective dose to individuals 
undergoing screening. The analysis of the data to date shows that the 
effective dose per screening is well below the maximum permitted for a 
general-use system under the ANSI/HPS standard.
    TSA is still reviewing the Inspector General report which has not 
been finalized at this time.

    Question 2. I recognize that security is a balancing act, and that 
we must balance the free flow of commerce and freedom of movement with 
security in the post 9/11 world. Historically, both DHS and TSA have 
not done a good enough job of explaining its aviation security 
regulations and policies to the traveling public, or to its field 
representatives who are charged with enforcing them. For example, one 
constituent relayed an experience in Savannah where he was told he was 
now required to un-tuck his shirt when going through screening. He 
asked when this new rule was implemented, and was told ``it has always 
been this way.'' TSA, it seems, consistently fails to communicate these 
changes, especially when doing so could probably speed up the screening 
process and give travelers an idea of what to expect. If you travel 
through 5 different airports, you will have 5 different TSA 
experiences. As we go into the very busy holiday travel season, what 
are you doing to ensure that TSA policies and regulations are properly 
understood and consistently enforced by TSA field representatives?
    Answer. The Transportation Security Administration uses a multi-
faceted approach to ensure its policies and regulations are properly 
understood and consistently enforced by TSA field personnel. Some of 
those approaches are:

  <bullet> Recurrent training of Transportation Security Officers (TSO) 
        both in group settings and on an individual basis. This 
        training continuously exposes and updates employees to the 
        processes and procedures required to properly screen 
        passengers.

  <bullet> Daily shift briefings to ensure TSA field personnel are 
        focused and poised to accomplish the mission prior to starting 
        a shift. The daily shift brief updates TSA field personnel on 
        current security intelligence information, addresses pertinent 
        airport incidents, and includes information on changes that may 
        have occurred in standard operating procedures.

  <bullet> Frequent national teleconferences between TSA Headquarters 
        and TSA Federal Security Directors. This forum is used to 
        discuss critical issues, such as increased passenger loads, 
        standard operating procedure changes, and other challenges that 
        may result from a holiday travel season.

  <bullet> Continuous observation of TSO. Supervisory TSOs observe TSO 
        screening practices and procedures and correct any practices 
        that are not consistent with established protocol.

  <bullet> Distribution of information. TSA's operational network and 
        field leadership rapidly distribute information, best 
        practices, and new procedures along with its associated 
        training to TSA field personnel.

  <bullet> A National Standardization Guide for Improving Security 
        Effectiveness. This program evaluates and assesses performance 
        and subsequently develops individual and collective training to 
        meet TSA's standards and expectations for screening proficiency 
        at the individual level.

    TSA will continue these approaches to ensure that TSA policies and 
regulations are properly understood and consistently enforced by TSA 
field personnel. As part of our continuing evolution of TSA as high 
performing counterterrorism organization, I am consolidating training 
and workforce engagement into one office that will strengthen our 
efforts to address some of the concerns noted.

    Question 3. What are you doing to ensure that they are properly 
communicated to your customers, the traveling public?
    Answer. TSA's Office of Strategic Communications and Public Affairs 
(OPA) engages in a year-round effort to communicate screening 
procedures, policies, and technologies in place at airports nationwide 
to the traveling public. During the busy holiday travel season, OPA 
accelerates those efforts and hosts dozens of press events at airports 
nationwide to penetrate local media markets and reach infrequent 
passengers who are traveling recreationally around the winter holidays.
    This year, TSA issued a national press release, hosted a national 
media availability with TSA Administrator Pistole, posted web copy to 
www.tsa.gov, and leveraged social media tools like the TSA Blog and 
Twitter to reach a broad audience.
    To provide passengers with 24/7 access to the most commonly 
requested TSA information on their mobile devices, TSA has developed 
the My TSA mobile application. My TSA puts the most frequently 
requested information about security procedures at airport checkpoints 
right at their fingertips. The application has multiple functions, 
including allowing travelers to find out if an item can be taken in 
checked or carry-on bags, view delays at all U.S. airports via a feed 
from the Federal Aviation Administration (FAA), get the most commonly 
asked packing and traveling tips, and post and see other passengers' 
checkpoint wait times at specific airports.
    In addition, regional spokespeople from across the country worked 
closely with reporters in wide-ranging media markets to reach travelers 
in big cities and small towns, and will continue to carry out this 
engagement throughout the year.

    Question 4. Can you update the Committee on the changes made to how 
TSA is treating its child customers?
    Answer. As part of our risk-based approach to security, TSA has 
modified prescreening procedures for children who appear 12 years of 
age and younger. One of these modified procedures includes permitting 
them to leave their footwear on through screening checkpoints. A 
byproduct of these revised screening procedures is to reduce, though 
not eliminate, pat-downs of children who appear 12 years of age and 
younger. If a pat-down is necessary, the procedure is less invasive 
than the procedure used to screen adults. As always, children and their 
guardians will not be separated during screening.

    Question 5. As you know as part of his deficit reduction plan, the 
President is proposing tripling the passenger security fee per one-way 
trip from $2.50 to $5.00 with additional 50-cent-per-year increases 
over the next five years to a total of $7.50. In conjunction with a 
$100 charge for every airplane departure in controlled airspace, the 
President estimates that these new fees will result in an estimated 
$8.8 billion in additional revenue over five years, and $24.9 billion 
over 10 years. The President's proposal would direct $15 billion to be 
deposited into the General Fund for deficit reduction, with any 
additional revenues in excess of this amount being applied to the 
Transportation Security Administration's (TSA) budget. While I support 
ensuring we have the best security apparatus in place to protect 
passengers, I believe that airline passengers are being unfairly 
targeted to pay down the deficit. With regards to this plan, did TSA 
approach the Administration to indicate that it needs these additional 
funds?
    Answer. With regards to only the portion of the plan that relates 
to the Passenger Security Fee, the Transportation Security 
Administration (TSA), in ongoing collaboration with the Department of 
Homeland Security (DHS) and the Office of Management and Budget (OMB), 
engages Congress to attain annual operating budgets that provide the 
resources necessary to ensure transportation security. TSA's annual 
operating budget is satisfied through a combination of appropriated 
resources and through resources generated from security fees imposed on 
beneficiaries of certain security services. In working within these 
constructs, TSA attempts to reach an optimal funding strategy that 
balances the burden of aviation security. The portion of the deficit 
reduction plan regarding the proposal for a $100 charge for airplane 
departures in controlled airspace may be addressed by the Federal 
Aviation Administration.

    Question 6. How much additional funding do you anticipate TSA will 
see each year as a result of this proposal?
    Answer. The most immediate impact of the proposal would be a change 
in the ratio of appropriated and fee funding received by TSA vice a 
change in total funding. TSA estimates that if the passenger fee 
proposal is adopted, the changed fee would generate $850 million, $900 
million, and $950 million in fiscal years 2013, 2014 and 2015 
respectively, in new discretionary security fee revenue that would 
further offset the total TSA cost of aviation security. The enactment 
of annual operating budgets would ultimately determine whether or not 
overall TSA resource levels are changed.

    Question 7. What plans does TSA have for using this additional 
funding?
    Answer. The increase in security fee revenue would allow a greater 
portion of the overall cost of aviation security to be offset by 
beneficiaries of aviation security services.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Roy Blunt to 
                          Hon. John S. Pistole
    Question 1. Why has the TSA decided to ignore the Court's 
injunctive relief in regards to the SPP contract at MCI (Kansas City 
International Airport)?
    Answer. The Transportation Security Administration (TSA) is not 
ignoring the Court of Federal Claims. In its decision regarding the 
protest filed by FirstLine Transportation Security, Inc., the court 
stated that TSA had two options if it desired to move forward with a 
Screening Partnership Program (SPP) contract award at MCI, one of which 
was a complete re-procurement of the solicitation requirements. As the 
court expressly noted, ``What course of action TSA chooses to pursue 
after contract award is cancelled in order to maintain security 
services at MCI is not for this court to decide.'' Consistent with the 
court's ruling, TSA has chosen to move forward with a complete re-
competition of this requirement to allow for full and open competition 
of the revised, current scope of work and using evaluation criteria in 
accord with the court's decision.

    Question 2. However, with no Advanced Imaging Technologies (AIT) 
full body scanners being added and little Risk-Based Security 
initiatives changes in Kansas City, does this still remain your reason 
for ignoring the court's injunctive relief?
    Answer. As stated above, TSA is not ignoring the court's injunctive 
relief. The court explicitly gave TSA the option of complete re-
procurement of the solicitation requirements, and TSA has chosen this 
option to allow for full and open competition of the revised, current 
scope of work.

    Question 3. Were these factors in the contract reward in April? If 
they were factors at that time then what specially changed in the 
following six months?
    Answer. No, Advanced Imaging Technology (AIT) and Risk-Based 
Screening (RBS) initiatives were not factors in the April 2011 contract 
award.

    Question 4. According to GAO, TSA has had a difficult time 
assessing apples to apples cost analysis of SPP airports and 
traditional TSA operated airports. Does TSA currently have better 
analysis to make that comparison? Does that now include increased 
screener efficiencies? Does it include an analysis of overtime charges 
or costs due to injury?
    Answer. The Transportation Security Administration (TSA) has had a 
constructive dialogue with the Government Accountability Office (GAO) 
regarding the cost analysis of airports directly operated by TSA and 
those airports operated within the Screening Partnership Program (SPP). 
While there are difficulties with any cost analysis, TSA included 
different assumptions to create a range and to cover all possibilities. 
TSA cost comparisons encompassed all applicable costs, including 
overtime and injury costs. In communications with TSA, GAO acknowledged 
its satisfaction with TSA's cost analysis methodology.

    Question 5. Administrator, in you announcement to cap the SPP to 16 
airports, you said that you would not expand the program unless there 
was a ``clear or substantial advantage'' to adding additional airports 
to the SPP program despite the demand. However, you have not released 
the metrics TSA uses to evaluate SPP applications. Will you release 
those metrics?
    Answer. The Transportation Security Administration (TSA) does not 
use a standard set of metrics to evaluate Screening Partnership Program 
(SPP) applications. Every airport is considered independently based on 
the unique characteristics that define the security and operational 
needs of that location as well as the impact on the total security 
network. Unique airport characteristics that might be used to make an 
SPP determination could be airports located in hard to hire areas such 
as airports with a high tourist population or a high cost of living; 
airports that experience increased traffic during a particular time of 
the year such as greatly increased traffic during ski season; and 
airports that are open only for part of the year such as operating only 
during the summer.

    Question 6. Does TSA have criteria in place to even be able to 
determine what might be a clear or substantial advantage?
    Answer. Every airport is considered independently based on the 
unique characteristics that define the security and operational needs 
of that location. Each airport's unique situation and associated cost 
is considered, along with the effect of privatization at the specific 
location on the total security network.

    Question 7. Please include a copy of that data in your response,
    Answer. See the response above.

    Question 8. TSA encouraged three Montana airports to opt-in to the 
SPP program but in January you denied their applications. What about 
the Montana airports made TSA encourage their participation in the SPP 
program?
    Answer. The Transportation Security Administration (TSA) does not 
encourage an airport to participate or not participate in the Screening 
Partnership Program (SPP). Per the Aviation and Transportation Security 
Act, an airport may submit an application ``. . . to have the screening 
of passengers and property at the airport . . . to be carried out by 
the screening personnel of a qualified private screening company . . 
.'' TSA does not consider an airport's interest in SPP until the 
airport submits an SPP application. The program remains open today, and 
TSA is continuing to accept applications.

    Question 9. What changed during that period of time?
    Answer. See response above.

    Question 10. Is there one airport in the country, large or small, 
that you would encourage participating in the program now?
    Answer. The Transportation Security Administration (TSA) does not 
encourage an airport to participate or not participate in the Screening 
Partnership Program (SPP).
                                 ______
                                 
    Response to Written Question Submitted by Hon. Kelly Ayotte to 
                          Hon. John S. Pistole
    Question. Unfortunately every Israeli citizen is used to living 
his/her life in the shadow of terrorism starting from an early age. Not 
only is understanding and living with terrorism a part of daily life in 
Israel, but so too is an awareness that individuals are often the 
primary target of terrorist attacks. At the same time, terrorists 
haven't penetrated Tel Aviv's international airport's security in 
almost 40 years. Israeli airport security, by contrast to TSA's 
approach, separates travelers into two groups before they ever get to 
an X-ray machine. All passengers waiting to check-in speak to a 
security agent. The agents ask a series of questions, looking for 
uneasiness or inconsistent statements. The vast majority of travelers 
pass the question-and-answer session and have an easy time going 
through security. Still, there are no full-body scans, for example, and 
only between 2 percent and 5 percent of travelers get singled out for 
additional screening. While the security situation is much different in 
Israel than it is in the U.S., and I am sensitive to the security 
threats that Israeli citizens endure daily, I still think there is an 
opportunity to learn from the experience and practices of Israel. How 
does the Israeli security model inform what security approaches TSA 
should take?
    Answer. The Transportation Security Administration (TSA) has 
considered the Israeli model, as well as best practices from other 
countries, and has worked to incorporate practices in a U.S. model that 
is consistent with our constitutional liberties and laws and feasible 
in an operational environment with much more locations and travelers 
than in Israel. For example, as part of TSA's Risk Based Security 
efforts, TSA is evaluating practices to include pre-screening and 
behavior assessment to allow for a real time threat assessment of a 
passenger prior to and during screening and boarding. Currently, the 
Assessor proofs of concept have modified current screening procedures 
by testing a new behavior detection technique. It includes interacting 
with all passengers at the Travel Document Checker (TDC) station to 
detect high-risk passengers. This pilot is currently underway in Boston 
and Detroit, and TSA is reviewing additional sites for consideration.
                                 ______
                                 
                                     President's Department
                 Air Line Pilots Association, International
                                   Washington, DC, November 8, 2011

Hon. John D. Rockefeller IV,
Chairman,
Committee on Commerce, Science, and Transportation,
Washington, DC.

Hon. Kay Bailey Hutchison,
Ranking Member,
Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Rockefeller and Senator Hutchison:

    On behalf of more than 53,000 pilot members who fly for 37 airlines 
in the U.S. and Canada, the Air Line Pilots Association, International 
(ALPA) would like to provide you with a synopsis of a number of 
aviation security concerns that ALPA believes should be brought to the 
attention of the Senate Commerce, Science and Transportation Committee 
during its TSA oversight hearing with Administrator John Pistole on 
November 9, 2011. Also attached for your review is an ALPA issue 
analysis of aviation security 10 years after the 9/11 attacks.
Threat-Based Security
    The attempted bombing of Northwest (NWA) flight #253 on Christmas 
Day, 2009 served as a catalyst for ALPA to publish a white paper 
entitled Meeting Today's Aviation Security Needs: A Call to Action for 
a Trust-Based Security System, in January 2010. In that document, ALPA 
articulated that the Transportation Security Administration (TSA) needs 
to change its post-9/11 philosophy of screening all people equally for 
harmful objects to one that focuses on identifying individuals having 
evil intent.
    We are pleased to acknowledge the positive response from a number 
of our industry partners, as well as from TSA leadership, expressing 
agreement with our call for a philosophical change in underlying 
aviation security philosophy. ALPA has been encouraged by TSA 
Administrator John Pistole's advocacy for the implementation of more 
threat-driven, risk-based security procedures, such as a known traveler 
program, and expanded use of the Screening of Passengers by Observation 
Techniques (SPOT) program. We are particularly pleased with his public 
statements that a properly identified and thoroughly vetted pilot 
flying an airliner should not be required to undergo the same screening 
procedures as a passenger about whom very little is known. TSA's 
support for the ALPA-conceived alternative screening program for 
pilots, referred to as Known Crewmember (KCM), has been a welcome 
change to previous ``one-size-fits-all'' screening requirements. ALPA 
expresses its gratitude to the leadership of the Air Transport 
Association (ATA) and its member airlines for facilitating the roll-out 
of KCM.
    We believe that significant steps have been taken by TSA to 
implement more risk-based solutions to securing the aviation sector, 
and we look forward to continued government and industry partnerships 
in the expansion of KCM and other threat-based, risk-mitigation 
programs.
Federal Flight Deck Officer (FFDO) Program
    The FFDO program, which uses federally-credentialed, volunteer, 
armed pilots who are trained and managed by the Federal Air Marshal 
Service (FAMS) to serve as the ``last line of defense'' of the flight 
deck, has dramatically grown since its inception in 2003. The FFDO 
program has been acknowledged by industry and government to be an 
extremely successful and cost-effective layer of aviation security. In 
this era of austerity, the FFDO program's annual budget has remained 
stagnant since 2004. As a result, TSA/FAMS ceased accepting new 
applications in 2011 and has announced its inability to accept 
applications to the program during 2012 as well. Additionally, FAMS is 
considering certain program cuts to counterbalance the stagnant 
funding. We respectfully submit that the FFDO program is a cost-
effective layer of aviation security and Congress should consider 
increasing the budget for the program.
    Regarding the FFDO program's deployment outside of the U.S., ALPA 
commends the TSA and the FAMS for their successes to date in this 
regard, and encourages continued efforts to expand its international 
capabilities.
Secondary Barriers
    On September 28, 2011, design standards for reinforced flight deck 
door secondary barriers were established by RTCA, a Federal Aviation 
Administration (FAA)-chartered, standard setting organization. These 
inexpensive, lightweight devices are intended to protect the flight 
deck whenever the reinforced door must be opened in flight. When used 
in conjunction with appropriate crew procedures, the secondary barrier 
will assist in identifying and delaying an attacker's intent to do 
harm. ALPA encourages the use in protecting the flight decks of our 
Nation's airliners to enhance aviation security both domestically and 
abroad.
Threatened Airspace Management
    The failed attack against Northwest Airlines flight #253 
demonstrated deficiencies in ground-to air communications during and 
after a significant in-flight security event. Pilots in command of 
other aircraft, either airborne or about to take-off, were not advised 
in real time of the circumstances impacting NWA 253. This lack of 
communication deprived these other aircraft commanders, in their role 
as In-Flight Security Coordinators (ISCs), of critical information 
which related to a potential security threat to their own flights, and 
negatively impacted the ability of flight and cabin crewmembers to best 
protect their passengers and aircraft.
    On April 7, 2010, the FAA and TSA did a better job of communicating 
information to other aircraft regarding an on-going security incident 
involving a diplomat suspected to be assembling a bomb while in the 
lavatory of an airliner traveling from Washington, DC to Denver, CO. 
However, the flight decks of only selected airborne aircraft were 
notified of the event. Since then, we have not witnessed the sharing of 
security-related information with aircraft commanders that would be of 
value to them in fulfilling their duties as pilots-in command.
    As recently as June 19, 2011, a bomb threat was made against a 
Washington, DC-bound airliner while it was in flight. The captain was 
not notified of the potential danger until landing at Ronald Reagan 
National Airport. The aircraft, with its 44 passengers and three 
crewmembers still onboard, sat on the ground for 29 minutes before 
emergency responders arrived at the plane and the passengers and crew 
were allowed to deplane.
    In addition to this communications deficiency, we have seen no 
evidence of a clearly-defined, prioritized plan to control the national 
air space (NAS) in the event of another 9/11-type attack. The U.S. 
economy and the domestic aviation industry cannot sustain the negative 
financial impact resulting from a repeat of a nationwide shutdown as 
occurred at that time. ALPA urges Congress to ensure the development of 
a prioritized plan for control of the NAS in such circumstances, with 
the intent of preventing a total or substantial closure.
All-Cargo Airline Security
    In November 2010, law enforcement and intelligence agencies 
interdicted attempts to bomb two U.S. all-cargo aircraft destined from 
international locations to the United States. Successful detonation of 
the explosives, hidden in printer cartridges shipped from Yemen, could 
have resulted in catastrophic loss of life and the aircraft involved.
    These attacks confirmed that all-cargo carriers remain a focus of 
terrorists. Notwithstanding government and industry awareness of a 
variety of security vulnerabilities which still exist in the air cargo 
domain, all-cargo operations remain exempt from a number of security 
practices mandated for passenger air carriers. Examples include: no 
hardened flight deck door requirement; no mandated All-Cargo Common 
Strategy training for crewmembers; no requirement for fingerprint-based 
criminal history record checks for persons with unescorted access 
privileges to aircraft and cargo; and no uniform requirement for 
Security Identification Display Area (SIDA) restrictions on all-cargo 
air operations areas.
    Although the Air Cargo Security Requirements; Final Rule, published 
in May 2006, did much to improve the security of all-cargo aircraft and 
operations, it fell short of the mark in several critical aspects. An 
investigative report issued by the Government Accountability Office 
(GAO) on June 20, 2011 provides evidence of a number of these remaining 
vulnerabilities and bolsters ALPA's argument that much work remains to 
be done in this regard. Based on the unwillingness of regulators, 
government and industry to adequately address these deficiencies, we 
believe that Congressional action is required to bring about needed 
change.
Laser Illumination of Aircraft
    On October 27, 2011 ALPA, in conjunction with the Air Transport 
Association, sponsored a one day conference entitled: Laser 
Illumination of Aircraft-A Growing Threat. The event highlighted the 
very real dangers posed to flight safety by this illegitimate activity 
which FAA statistics show to be increasing at an alarming rate, and was 
intended to spur further action to mitigate the problem.
    ALPA applauds the FAA's recent announcement of its increased civil 
fining authority with respect to this activity, up to a maximum of 
$11,000 per event. We are also pleased the Senate included an amendment 
in the Federal Aviation Administration reauthorization bill sponsored 
by Senator Sheldon Whitehouse to make knowingly shining a laser at an 
aircraft cockpit a Federal crime. While we continue to advocate for a 
multi-year, comprehensive FAA reauthorization bill, we acknowledge the 
uncertainty of that legislation, and urge the Senate to swiftly pass a 
stand-alone measure that would make the intentional laser illumination 
of aircraft a specific Federal crime.
    ALPA is grateful for the Committee's attention to these critical 
transportation security matters. We look forward to working with you to 
better protect the traveling public and the U.S. aviation industry.
            Sincerely,
                                          Captain Lee Moak,
                                                         President.
                                 ______
                                 

   ALPA Issue Analysis--Air Line Pilots Association, International--
                     Washington, D.C.--www.alpa.org

Aviation Security: 10 Years after the 9/11 Attacks
    The 9/11 terrorist attacks resulted in a sea change for aviation 
security through the combined efforts of government, industry, and 
labor. ALPA's view is that aviation security progressed significantly 
because of these efforts, but ongoing improvements will always be 
needed to stay ahead of the ever-changing threat.
    To take aviation security to the next level, the government needs 
to continue to transition to a proactive, human-centered, and threat-
driven security system that harnesses the expertise and experience of 
all parties--regulators, airlines, airports, and labor. As part of this 
endeavor, there must be a shift away from focusing solely on the 
detection and interdiction of threat items and toward a determination 
of the presence of hostile intent.
    Trusted airline employees should be positively identified and used 
as the ``eyes and ears'' of security. A new paradigm for cooperation, 
coordination, and communication among all affected parties will enhance 
our ability to detect and counter all terrorist threats. ALPA has a 
long history of building strategic alliances among stakeholders to 
achieve our common goals, and we are enthusiastically engaged in this 
challenge.
    ALPA represents more than 53,000 pilots who fly for 39 airlines in 
the United States and Canada. The union's 80-year history as an 
independent safety and security organization gives the Association an 
unparalleled perspective in analyzing the current state of aviation 
security and how it needs to change to keep airline passengers, crews, 
and cargo secure in the future.
    What follows is a description of the most important accomplishments 
of the past 10 years, and the most needed additional improvements.
Most Significant Accomplishments Since 9/11
<bullet> U.S. DOT Rapid Response Teams
    A few days after 9/11, the U.S. Secretary of Transportation formed 
two ``Rapid Response Teams'' to develop recommendations for improving 
security. One team was tasked with examining security at U.S. airports 
and focused on the screening of passengers and cargo. The other focused 
on aircraft security, particularly in safeguarding the flight deck. 
ALPA's president was asked to serve on this team. The two teams 
developed a number of significant
    recommendations, many of which were implemented within a year of 9/
11. In Canada, parallel activity involved ALPA representatives working 
with the top levels of the Canadian government to ensure that new, 
meaningful security measures were implemented.
<bullet> Creation of New Federal Security Agencies
    In November 2001, the President signed into law the Aviation and 
Transportation Security Act, which created the Transportation Security 
Administration (TSA). The responsibility for security policy, passenger 
screening, and other related functions was transferred from the Federal 
Aviation Administration to TSA at that time. One year later, the 
Homeland Security Act created the Department of Homeland Security, 
which combined TSA and 21 other Federal agencies and offices under a 
single cabinet-level department devoted to national security.
    The Canadian government created a new Crown corporation, the 
Canadian Air Transport Security Authority (CATSA), which is responsible 
for, among other things, screening passengers and their carry-on and 
checked baggage.
    Transport Canada developed a security consultative structure in 
2004 composed of the Advisory Group on Aviation Security (AGAS), the 
Security Regulatory Committee, and working groups. Since its inception, 
AGAS has facilitated information exchange between government and 
industry on current and emerging aviation security policy and 
regulatory and program priorities and initiatives.
    Beginning in 2008, ALPA worked with Transport Canada on the 
Security Management System, a program similar to the Safety Management 
System, that is intended to supplement performance-oriented security 
regulations and security measures for all aspects of Canadian aviation.
<bullet> Common Strategy--Passenger and All-Cargo Domains
    ALPA played a significant role in the pre-9/11 development and 
implementation of the Common Strategy, a standardized crisis response 
plan used by the aviation industry and critical government agencies for 
dealing with defined criminal and terrorist acts perpetrated onboard 
aircraft. Because the events of 9/11 clearly demonstrated that the plan 
needed to address the suicidal terrorist threat, ALPA urged the FAA to 
address this need. As a result, the FAA administrator asked ALPA to 
lead a coalition of industry stakeholders to develop a new Common 
Strategy. This undertaking was completed in 2002, and in 2006 a new 
All-Cargo Common Strategy was published, which marked the first time 
that this standardized security plan had included crewmembers who fly 
all-cargo aircraft.
    In 2003 ALPA expressed concern to Transport Canada that a Canadian 
version of the Common Strategy was not in place. As a result, 
significant changes were made to the Canadian security training 
guidelines for airline crewmembers, including establishing four levels 
of response to threat events onboard aircraft.
<bullet> Federal Air Marshal and In-Flight Security Officer Programs
    Until September 11, 2001, U.S. passenger airliners were protected 
by a small cadre of 33 Federal air marshals, who flew mostly 
international routes. ALPA strongly supported an expansion of this 
small program to provide greater deterrence and security onboard more 
flights, both domestic and international.
    Today, a significantly bolstered Federal Air Marshal Service (FAMS) 
is managed by the Transportation Security Administration and protects 
U.S. carriers domestically and internationally. FAMS works closely with 
other government agencies, ALPA, and additional critical industry 
stakeholders to accomplish its mission. Some of the many 
responsibilities it has undertaken include management of the Federal 
Flight Deck Officer and Crewmember Self-Defense Training programs.
    Canada had no aircraft protection program before 9/11, but 
thereafter, ALPA convinced the Canadian government that it needed to 
create an air marshal program. In 2002 the Royal Canadian Mounted 
Police (RCMP) instituted the Canadian Air Carrier Protective Program 
(CACPP), which puts armed RCMP members, designated as In-Flight 
Security Officers (IFSOs), on Canadian-registered aircraft. These 
officers operate under training regimes and rules of engagement very 
similar to those of FAMs.
<bullet> Federal Flight Deck Officer Program
    ALPA was instrumental in calling and lobbying for the creation of 
the Federal Flight Deck Officer program shortly after the 9/11 attacks. 
In 2002, Congress enacted the Arming Pilots Against Terrorism Act 
(APATA) as part of the Homeland Security Act. In April 2003, the first 
class of 44 pilots graduated from the Federal Law Enforcement Training 
Center and was deputized as Federal law enforcement officers, charged 
with the responsibility of defending the flight decks of passenger 
airliners. One year later, Federal legislation made pilots who fly all-
cargo aircraft eligible to participate in the program. Since then, 
thousands of dedicated volunteer pilots have served as Federal Flight 
Deck Officers, protecting the flight decks of both passenger and all-
cargo airliners and adding a key layer of additional security to air 
transportation.
<bullet> Reinforced Flight Deck Doors
    The Aviation and Transportation Security Act of 2002 included a 
requirement to strengthen the flight deck doors on airliners. ALPA 
played a critical role in assisting the Federal Aviation 
Administration's and Transport Canada's efforts to develop design 
criteria and standards for these barriers. Reinforced flight deck doors 
are now installed on virtually all passenger airliners in the U.S. and 
Canada and on many cargo aircraft. Additionally, enhanced flight deck 
door security procedures for flight deck and cabin crewmembers were 
developed and put in place to promote communication and ensure the most 
effective response to a security threat aboard the aircraft.
<bullet> Secondary Barriers
    The value of a reinforced cockpit door can only be realized when 
the door is securely closed.
    During longer flights, the cockpit door may need to be opened for 
many reasons, including flight and cabin crew coordination and to meet 
the flight crew's physiological needs.
    A secondary barrier--composed of netting, strands of wire, or other 
lightweight materials--placed on the cabin side of the fortified flight 
deck door is designed to add enhanced security during times of ``door 
transition'' by impeding access to the cockpit door and providing 
additional time for crewmembers to secure the door in the event of an 
attempted breach. A secondary barrier also assists a flight and cabin 
crew in determining whether an individual intends to breach the flight 
deck door and poses a potential security threat.
    ALPA successfully advocated to government and industry the creation 
of a new RTCA Special Committee (SC) 221, which began in 2008 to 
develop performance standards for secondary barriers. At least one 
major airline has already installed these devices on many of its 
aircraft in advance of standards finalization, and some aircraft 
manufacturers now offer secondary barriers as an option on new 
equipment.
<bullet> Enhancing Jumpseat Security
    Immediately following the 9/11 attacks, the access to the flight 
deck jumpseat was eliminated. It was restored, however, fairly soon 
thereafter for pilots who were employed by the company that operated 
the aircraft. Access to that seat, which is essential for movement of 
flight crews, was not authorized for ``off-line'' pilots (i.e., those 
not employed by the company that operates the aircraft). Several 
airlines, with ALPA's strong support, collaborated in 2003-04 on the 
development of a new system, called the Cockpit Access Security System 
(CASS), which verifies employment and validates identity using Internet 
access to airline employee databases. The TSA tested the system in 2004 
and approved its use by all airlines beginning in 2005. Because of 
CASS, pilots other than those operating the aircraft are permitted to 
travel in the cockpit and support the on-duty flight crew in the event 
of a safety or security issue.
    Canada approved the use of positive identity verification measures 
to authorize the use of the flight deck jumpseat by non-operating, on-
line flight crews.
<bullet> Implementing Threat-Based Security
    ALPA has for years called for a philosophical shift in aviation 
security from the current practice of screening all people equally for 
harmful objects (i.e., one-size-fits-all security) to one that focuses 
on identifying persons with the intent to do harm. Such a ``threat-
based'' approach to security screening would allow passengers with 
known backgrounds to be promptly cleared through security, and would 
free resources to place a greater focus on individuals whose background 
is unknown or in doubt. ALPA advocates determining the risk posed by 
each passenger through a combination of publicly available information, 
human interaction, and behavior-pattern recognition.
    In 2011, TSA announced that it would be starting a program later 
this year at four airports to implement a ``known traveler'' type of 
program that would begin to achieve ALPA's goal of threat-based 
security.
<bullet> Enhanced Pilot-Screening Programs
    One component of threat-based security is recognizing the 
trustworthiness of airline pilots, who are the most heavily scrutinized 
employees in the aviation industry. Beginning in 2007, ALPA strongly 
advocated for a system of better screening airline pilots, called the 
Crew Personnel Advanced Screening System (CrewPASS). The ALPA-conceived 
CrewPASS program was designed to provide enhanced security screening 
for authorized flight crewmembers using airline employee databases to 
verify an individual's identity and confirm his/her employment status. 
CrewPASS was implemented at three East Coast airports in 2008 and 
continues to operate today.
    In 2011, the TSA approved testing of the next iteration of this 
concept, called the Known Crewmember program. Known Crewmember, which 
is jointly sponsored by ALPA and the Air Transport Association, uses 
more advanced technology than CrewPASS. The first access points for the 
Known Crewmember program began operating at Chicago O'Hare 
International Airport on August 9 and at Miami International Airport on 
August 23, 2011. The program will soon open additional test sites at 
Seattle-Tacoma International Airport, Minneapolis-St. Paul 
International Airport, Phoenix Sky Harbor International Airport, 
Washington Dulles International Airport, and Boston Logan International 
Airport. The TSA is prepared to authorize nationwide implementation 
pending successful testing.
    In 2002, the Canadian transport minister introduced a new form of 
airline employee identification--the Restricted Area Identity Card 
(RAIC)--to provide for enhanced flight crew security screening. A 
cutting-edge aviation security initiative, the RAIC program uses 
biometric data and in-depth background vetting to more effectively and 
securely identify airline pilots and other airline employees. In 2004, 
CATSA introduced the RAIC iris-and-fingerprint program. Since then, the 
initiative has been expanded to include approximately 100,000 employees 
who work in restricted areas at Canada's 29 largest airports. The 
Canadian RAIC program has become an international model for airline 
employee screening programs.
<bullet> Cargo Security
    Enhancing cargo security presents a formidable task because of the 
complexities of the air cargo supply chain, the demands associated with 
the flow of commerce, and economic constraints. Responding to a Federal 
mandate, the TSA took on this challenge in the mid-2000s by harnessing 
the expertise of critical industry stakeholders, including ALPA. A new/
final rule on air cargo security published in 2006 brought sweeping 
changes to security measures applied in passenger and all-cargo 
domains.
    ALPA worked diligently with Transport Canada to develop appropriate 
air cargo security legislation. As a direct result of ALPA's advocacy 
to the Canadian Air Cargo Security Working Group, Transport Canada 
issued a rule in 2010 requiring 100 percent hold-baggage screening.
<bullet> Safeguarding Aircraft from Laser Attacks
    In January 2011, ALPA instituted an action plan to safeguard the 
skies from deliberate laser illuminations of aircraft. In June 2011, 
the Department of Transportation and the FAA announced a new legal tool 
to help authorities impose civil fines of as much as $11,000 against 
individuals who attack aircraft with lasers from the ground.
Most Needed Security Improvements
<bullet> Implement Threat-Based Security
    The current one-size-fits-all philosophy driving aviation security 
is inadequate to meet today's security threats. Not all airline 
passengers pose an equal threat, so the goal of security screening must 
not be to only detect and interdict prohibited items, but also to 
distinguish between the known individual, the unknown individual, and 
those individuals who intend to do harm. A threat-based approach will 
ultimately enhance passenger privacy, create a more efficient and 
effective screening system, and make better use of limited screening 
resources. While TSA has publicly committed to pursuing a threat-based 
approach to aviation security and some steps have been taken, threat-
based security should be adopted across the board as a foundational 
philosophy and as a plan of action to address today's threats.
    In line with the development of threat-based security, 
implementation of the Known Crewmember program across the U.S. should 
be achieved in the near term. We recommend the inclusion of flight 
attendants in this program.
<bullet> Secure All-Cargo Flight Operations
    After more than a decade of advocacy, ALPA believes that 
congressional action is needed to compel regulators and industry to 
close the gap in security requirements for all-cargo flight operations. 
The association is particularly concerned about the need to improve 
Security Identification Display Area (SIDA) requirements, background 
vetting of individuals with unescorted access to cargo aircraft and 
cargo, hardened flight deck door requirements, and training in the All-
Cargo Common Strategy for response to security threats. A June 2011 
report from the Government Accountability Office gives clear evidence 
that these vulnerabilities continue to exist and to jeopardize the 
security of air transportation in this country.
    ALPA recommends that all airports that serve regularly scheduled 
all-cargo operations conducted by transport category airliners be 
required to establish and maintain a designated SIDA for such 
operations. SIDA requirements detail perimeter security protocols, 
clearly define entry and exit procedures, dictate specific 
identification display and ramp security procedures, and are predicated 
on a mandatory 10-year fingerprint-based criminal history record check 
for all employees who maintain unescorted access privileges within the 
SIDA. ALPA also calls for installing hardened flight deck doors on all-
cargo airliners, mandated security training for all-cargo flight 
crewmembers and staff, and establishing a threat-based approach to 
cargo security.
<bullet> Enhance the Federal Flight Deck Officer Program
    The FFDO program to deputize and arm trained airline pilots to 
defend the cockpit has proven extremely successful. Participation has 
grown considerably since the program began in 2002. In spite of this 
success, the TSA has not requested or received any significant increase 
in funding for the FFDO program since 2004. Because the current funding 
level is inadequate to support the existing FFDO corps, the program has 
stopped accepting new applications through 2012. Both industry and 
government have acknowledged that the FFDO program is a proven, cost-
effective layer of aviation security, and ALPA calls on Congress to 
provide a significant increase in its funding.
<bullet> Institute Threatened Airspace Management
    ALPA calls for the development of a prioritized plan for control of 
the national airspace system during a major security event. A 
Threatened Airspace Management Plan must provide pilots-in-command of 
airborne aircraft, or those about to take off, with real-time 
notification of significant and ongoing security concerns. Improved 
ground-to-air communications will better enable pilots to protect their 
passengers, crew, cargo, and aircraft. Additionally, maintaining a 
current prioritized plan for control of threatened airspace is 
critical.
<bullet> Install Secondary Barriers on All Airliners
    A reinforced cockpit door is an asset only when the door is 
securely closed. During longer flights, the cockpit door may need to be 
opened for many reasons, including flight and cabin crew coordination, 
meal service, and the flight crew's physiological requirements.
    The RTCA, a group made up of government and industry 
representatives that sets technical standards, will soon issue its 
final report containing performance standards for permanently 
installed, secondary flight deck barriers. ALPA urges government and 
industry to carefully consider the security benefit provided by these 
devices and recommends installing them on all airliners.
<bullet> Protect Aircraft from Laser Attacks
    Federal Aviation Administration (FAA) statistics show an 
exponential increase in reported laser attacks against aviation. The 
threat to aviation safety is growing and real. ALPA calls for 
additional progress on its 2011 regulatory, legislative, and public 
awareness action plan to safeguard the skies from deliberate laser 
attacks on aircraft. The actions required include:

  <bullet> prosecuting to the fullest extent of the law individuals who 
        intentionally shine a laser at an aircraft,

  <bullet> restricting the sale of portable lasers that are strong 
        enough to cause injury,

  <bullet> increasing the size of laser-free zones around airports,

  <bullet> developing new air traffic control and pilot operating 
        procedures to mitigate risk when laser illuminations are 
        reported, and

  <bullet> adding deliberate laser illuminations to the NTSB's list of 
        most wanted transportation safety improvements.

    Recently, Canadian authorities have handed down stronger sentences 
for individuals who have been convicted of deliberately shining a laser 
at an aircraft. ALPA supports these efforts to prosecute to the fullest 
extent of the law those who perpetrate laser attacks.
<bullet> Fully Fund the Canadian Air Carrier Protective Program
    In October 2010, budget cuts led to a 25 percent reduction in the 
force of In-flight Security Officers (IFSOs) in the Canadian Air 
Carrier Protective Program. In ALPA's view, the value of the CACPP and 
the cooperation that exists between the program and airline pilots are 
essential elements in aviation security and must be fully supported.
<bullet> Enhance Government-Industry-Labor Collaboration
    On the 10th anniversary of 9/11, ALPA commends those in government 
and industry who have worked with the Association to achieve so many 
significant enhancements to aviation security. We must continue to 
improve on our collaborative efforts to develop and implement new and 
better ways to address the constantly evolving threat against aviation.

                                  <all>

</pre></body></html>
